Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




OXYGEN CONCENTRATOR SERVICES





                   F* SERVICtt
              ~+                 6*V
             +
        ~v                             JUNE    GIBBS BROWN
        .2s
                           Inspector    General

          ‘3

                 $
           %.

             ++
                              NOVEMBER 1994

               >
              4+daa
                                               OEI-O3-91-O171O

                      OFFICE      OF INSPE~OR            GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
stat utory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Sefices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secreta~ of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE      OF AUDIT        SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE      OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE      OF EVALUATION              AND    INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
regional office under the direction of Joy Quill, Regional Inspector General and Robert A.
Vito, Deputy Regional Inspector General. Principal project staffi

REGION
                                      HEADQUARTERS


Robert A. Katz, Rroject Leader
              W. Mark Krushat, SC.D.

Donna M. Millan, Lead Ana(yst
               Brian Ritchie

Cynthia R. Hansford
                         Tom Noplock

Daniel Brooks

Dianne Griffiths

Leslie Grossman

Craig Feinberg

Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




OXYGEN CONCENTRATOR SERVICES
                 EXECUTIVE                     SUMMARY

PURPOSE

This report describes the services provided to Medicare beneficiaries who rented
oxygen concentrators in 1991. We conducted this study to determine the nature and
extent of these sewices.

BACKGROUND

Medicare coverage of home oxygen care

Medicare allowances exceeded $660 million in 1991 for oxygen concentrator rentals.
Nationally, the average monthly allowance for stationary equipment including
concentrators was approximately $273.

Section 1861(S)(6) of the Social Security Act prescribes coverage of durable medical
equipment (D ME) including home oxygen equipment and supplies under Medicare.
Medicare covers home oxygen care for beneficiaries who suffer from significant
hypoxemia (a deficiency in the amount of oxygen in the blood). The Health Care
Financing Administration (HCFA) manages the Medicare program.

@gen   systems

The three primary oxygen systems are (1) oxygen concentrators, (2) liquid oxygen, and
(3) gaseous systems. Liquid and gaseous systems are administered directly to patients
using conventional tanks or cylinders.

Designed primarily for home use, oxygen concentrators are electrically powered
devices which provide long-term, life-sustaining supplemental therapy for patients with
inhibited pulmonary function, such as chronic obstructive pulmonary disease. The
devices provide a richer concentration of oxygen to the patient by separating
atmospheric gases from room air.

Concentrator     require maintenance

The delivery of effective therapy embodied in home oxygen equipment implies that
suppliers perform services on an initial as well as a continuing basis to assure the
delivery of therapeutic care. Generally, patients using items such as wheelchairs and
hospital beds require little monitoring. In contrast, oxygen therapy patients typically
require more attention in the form of periodic services from the oxygen supplier.
Such services may include equipment monitoring and maintenance, emergency service,
and patient instruction and assessment.




                                           i
The HCFA implemented changes in the processing of DME claims (including claims
for oxygen concentrator rentals) effective October 1, 1993. Under the new system,
suppliers must meet certain standards to obtain a billing number. However, the new
standards did not delineate minimum service requirements for beneficiaries receiving
home oxygen care.

Methodology

Using a 2-stage random sample, we selected beneficiaries in 8 Medicare carrier service
areas. The 8 service areas (referred to as States in this report) were Arkansas,
Georgia, Kentucky, New Jersey, North Carolina, Oklahoma, Pennsylvania, and
Wisconsin. Our beneficiary sample represents the total population of 220,371
Medicare beneficiaries who received oxygen concentrator therapy for at least 3 months
in 1991.

FINDINGS

Home Ozygen Concentrator       llerapy   Neceiwitata   Support Se@es.

  �	   Oxygen concentrator     usage necessitates that suppliers deliver services
       periodically.

  �	   A number of national organizations have established service standards for home
       oxygen care.

  �	   Standards implemented by national organizations detail specific practices
       suppliers should meet, including guidelines for equipment and patient care.

Some Benejiczhia   Receive Extensive Services while Ohm          Receive Few Services.

  k	   About 77 percent of beneficiaries do not receive equipment monitoring services
       every 30 days.

  �	   Nearly half of all beneficiaries--47 percent--do not receive any patient care
       evaluations or assessments from suppliers.

Many Benejkiaria   Did Not Receive Services Endked          @ National     (hganizations.

  �	   Many of the beneficiaries did not receive the recommended selvices endorsed
       by two national organizations involved in respiratory treatment--the Department
       of Veterans Affairs and the American Association for Respiratory Care.

Medicare Poticiix Contribute    To The W&       Variation In Suppti     Sem”ces.

  �	   Current Medicare policies do not delineate specific service requirements             for
       suppliers providing home oxygen therapy.


                                                 ii
  b	   Beneficiaries may not be knowledgeable enough to select suppliers who provide
       appropriate ongoing services.

RECOMMENDATIONS

We recommend HCFA produce a strategy to ensure that Medicare beneficiaries
receive necessary care and support in connection with their oxygen therapy. We offer
a range of options for HCFA to consider which include (1) educating providers and
beneficiaries about the kinds of services available and recommended by national
organizations, (2) promoting industry standards to ensure better and more consistent
supplier practices, and (3) setting minimum service standards by requiring suppliers to
meet accreditation, certification, or licensing requirements.

COMMENTS

We solicited and received comments on our draft report from HCFA and other
concerned organizations, which included the National Association for Medical
Equipment Services (NAMES), the Health Industry Distributors Association (HIDA),
the Health Industry Manufacturers Association (HIMA), and the American
Association for Respiratory Care (AARC). The full text of their comments can be
found in Appendix H.

The HCFA generally agreed with our recommendation, but preferred the first option
we presented. The NAMES, HID& and AARC agreed with our recommendation
and supported the establishment of more explicit service standards.

We appreciate the positive responses we received to our recommendation.       Of all the
reviewers who commented on our recommendation, HCFA was the most cautious in
considering options for promotion of standards or setting minimum requirements.
The HCFA believes that supplier business standards, newly in place, will address some
of the problems we identified. While supplier standards can be used as a foundation
for required services, they are neither explicit nor comprehensive in adressing the
needs of beneficiaries on oxygen therapy.

The HCFA also expressed concerns about resources required to promote or set
standards. While we appreciate these concerns, we believe that innovative approaches
may be possible if HCFA pursues a productive partnership with concerned
organizations, such as those which commented on our report. The HCFA may wish to
explore these options in more detail with such organizations before committing to a
specific course of action.

We also encourage HCFA to consider ideas beyond those which we have laid out,
which might also accomplish the objective of ensuring beneficiaries receive needed
services. Again, collaboration with industry and beneficiary organizations might
identifj some of those other approaches.



                                           ...
                                           111

                    TABLE                    OF          CONTENTS

EXECUTIVE      SUMMARY


INTRODUCTION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


   Home Oxygen Therapy Necessitates Support Selvices . . . . . . . . . . . . . . . . . . . . 6


   Beneficiaries Receive Varying Levels of Care . . . . . . . . . . . . . . . . . . . . . . . ...8


   Beneficiaries Did Not Receive Recommended                        Care      . . . . . . . . . . . . . . . . . . . . 12


   Medicare Policies Contribute to Variation in Support Services                              . . . . . . . . . . . . 13



RECOMMENDATIONS                AND COMMENTS                     . . . . . . . . . . . . . . . . . . . . . . . . ...15



APPENDICES

   A   Medicare Supplier Standards..                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

   B: One Supplier’s Monthly Checklist . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l

   c:	 Examples of Classification of Monitoring Services . . . . . . . . . . . . . . . . . . C-1


   D: Calculations and Confidence Intervals                     . . . . . . . . . . . . . . . . . . . . . . . . . . D-1


   E: NAMES’ Code of Ethics                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..E-l


   F: Manufacturer’s Maintenance                Procedures        . . . . . . . . . . . . . . . . . . . . . . . . . F-1


   G: Typical VA Contract              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..G-l


   H: Comments from HCFA and Concerned Organizations                                    . . . . . . . . . . . . . . H-1

                        INTRODUCTION

PURPOSE

This report describes the services provided to Medicare beneficiaries who used oxygen
concentrators in 1991. We conducted this study to determine the nature and extent of
these services.

BACKGROUND

Section 1861(S)(6) of the Social Security Act prescribes coverage of durable medical
equipment (DME) including home oxygen equipment and supplies under Medicare.
Medicare covers home oxygen care for beneficiaries who suffer from significant
hypoxemia (a deficiency in the amount of oxygen in the blood). The Health Care
Financing Administration (HCFA) manages the Medicare program.

The three primary oxygen systems are (1) oxygen concentrators, (2) liquid oxygen, and
(3) gaseous systems. Liquid and gaseous systems are administered directly to patients
using conventional tanks or cylinders.

On June 1, 1989, HCFA implemented a fee schedule reimbursement system for
oxygen equipment. This replaced the customary, prevailing, and reasonable charge
methodology process which governed DME reimbursements previously. The fee
schedules set reimbursement rates in four categories: stationary equipment, oxygen
contents, portable contents, and portable equipment. Within a carrier’s service area,
all items in each of the categories are reimbursed equally. The carriers developed the
rates (subject to yearly updates) based on 1986 supplier charge data. Medicare
allowances exceeded $660 million in 1991 for oxygen concentrator rentals. Nationally,
the average monthly allowance for stationary equipment including concentrators was
approximately $273.

Designed primarily for home use, oxygen concentrators are electrically powered
devices which provide long-term, supplemental oxygen therapy for patients with
inhibited pulmonary function, such as chronic obstructive pulmonary disease. The
devices provide a richer concentration of oxygen to the patient by separating
atmospheric gases from room air. Generally, patients qualify for oxygen concentrator
therapy if they have reduced pulmonary function measurable by blood gas analysis or
pulse oximetry testing.

Oxygen concentrators, unlike some other types of DME, deliver supplemental oxygen
therapy directly to the patient. Patients using home oxygen may be too ill to leave
their homes; many literally survive from day to day because of the therapy delivered
by their oxygen equipment. Generally, patients using items such as wheelchairs,
walkers, and hospital beds require little monitoring once their equipment has been
delivered. In contrast, oxygen therapy patients typically require more attention,


                                           1
Although HCFA states that these services are “an integral part of oxygen and DME
suppliers’ costs of doing business,” the specific nature of these services is not
delineated. The HCFA also states, “Such costs are ordinarily assumed to have been
taken into account by suppliers (along with all other overhead expenses) in setting the
prices they charge for covered items and services.”l

Changes in CZaims I%xrsing      Environment

There have been concerns about past practices by some DME suppliers since
Medicare’s inception. Such practices include (1) carrier shopping (essentially, billing
the carrier which has the highest reimbursement even though patients reside in a
different area), (2) using multiple supplier billing numbers to disguise unethical
billings, and (3) using telemarketing techniques to solicit supplies and equipment.

The HCFA implemented sweeping changes in the processing of DME claims
(including claims for oxygen concentrators) filed on or after October 1, 1993. The
changes were designed to counter abusive practices and streamline claims processing.
The changes included the following:

  b	     All existing suppliers had to reapply for Medicare billing numbers to a new
         entity known as the National Supplier Clearinghouse (NSC). Among other
         functions, the NSC investigates to assure that suppliers have only one billing
         number.

  �	     The phasing in of four DME regional carriers (known by the acronym
         DMERCS) to process all DME claims as well as claims for orthotics and other
         medical supplies.

  F	     Suppliers must meet specified standards to obtain a billing number, such as the
         repair and maintenance of rental items. (See Appendix A for a list of the
         standards.)

  �	     Suppliers found not meeting standards could have their billing numbers
         revoked.

At the end of 1993, the supplier enumeration process under the new system was
incomplete. About 75 percent of an estimated 120,000 DME suppliers had been
enumerated, according to a HCFA representative.

Rew”ous Ojjke of Inspector General (OIG) Work

In 1987, we conducted a study comparing Medicare reimbursement for home oxygen
and oxygen equipment with amounts paid by non-Medicare payers, We found non­



       ] Medicare Carrier’s Manual, Section 5105.


                                              2
Medicare payers haddeveloped cost-effective reimbursement methods for home
oxygen which resulted in monthly payments as low as one-quarter the amount paid by
Medicare.

One of the non-Medicare payers mentioned in the report was the Department       of
Veterans Affairs (VA). We contacted 122 VA hospitals and found all paid
substantially less than Medicare for home oxygen concentrators.

We found that VA hospitals have independent authority to decide which
reimbursement options are the most economical. About 73 percent of the hospitals
contacted provided home oxygen services through a competitive acquisition process.

We completed a study in 1990 centered on the medical necessity of oxygen
concentrators for Medicare beneficiaries. Entitled “National Review of the Medical
Necessity for Oxygen Concentrators,” we reported that one-third of the sample
beneficiaries in the study either did not need oxygen or did not need oxygen to the
extent billed.


A follow-up study completed in 1991, “Oxygen Concentrator Reimbursement:

Medicare and the Veterans Administration,” revealed that Medicare pays more than
twice as much for oxygen concentrators as the VA.

In another 1991 study entitled “Trends in Home Oxygen Use,” we found that oxygen
concentrators were the most frequently used home oxygen delivery system during 1989.
Specifically, concentrators represented approximately 80 percent of Medicare
payments for oxygen therapy semices.

METHODOLOGY

Using a 2-stage random sample, we selected beneficiaries in 8 Medicare carrier service
areas. The 8 service areas (referred to as States in this report) were Arkansas,
Georgia, Kentucky, New Jersey, North Carolina, Oklahoma, Pennsylvania, and
Wisconsin. Our original sample consisted of 275 Medicare beneficiaries representing
212 suppliers. These beneficiaries received oxygen concentrator therapy for at least 3
consecutive months in 1991, the most recent year available. Due to lack of supplier
documentation, the final sample includes 183 suppliers representing 244 beneficiaries.
This sample size allows us to project our results within +/- 1.2 percent to 12.3 percent
at the 90 percent confidence level, with the great majority of estimates made within
+/- 5 percent. Our beneficiary sample represents a total national population of
220,371 Medicare beneficiaries who received oxygen concentrator therapy for at least
3 months in 1991.

After we identified the suppliers who provided the oxygen concentrators, we wrote to
them requesting copies of their records for the 1991 rental periods for the sample
beneficiaries. We requested a copy of the original physician’s prescription and copies
of any written instructions supplied to the beneficiaries. We also asked each supplier


                                           3
to complete -a questionnaire detailing their company’s background, staff qualifications,
and practices on patient and equipment care.

Some beneficiaries received services from multiple suppliers during 1991. In these
cases, we decided to use the information from the suppliers with the longest rental
periods in our calculations. We did not attempt to determine why these beneficiaries
had more than one supplier.

We accepted written evidence of home services rendered. When a supplier did not
provide written evidence of services performed, we recontacted them to ask for such
documentation. Twenty-nine suppliers representing 31 beneficiaries were unable to
provide documentation. Reasons for lack of documentation include (1) no records
could be found, (2) records were lost or destroyed, and (3) failure to document
services performed. Since we were determined to use a conservative approach, we
excluded these cases from our sample. Their exclusion reduced our sample size to 183
suppliers representing 244 beneficiaries. Still, our reliance on documentation is a
limitation of our study since it is possible in some cases that semices were rendered
but not recorded. Likewise, semices which were documented may not have been
actually performed. Through follow-up calls with suppliers, visits with suppliers,
classifications of services, and removal of suppliers with no documentation from our
analyses, we attempted to minimize error in both directions.

We analyzed the information to determine the nature as well as the extent of services
rendered in 1991. We classified the services as either an equipment or a patient
monitoring service. Where documentation existed, we classified equipment set-ups as
equipment monitoring services. (An example of one supplier’s monitoring procedures
is contained in Appendix B.)

Many suppliers submitted documentation on services which did not involve equipment
or patient monitoring, such as disposable equipment drop-offs and equipment pick-
ups. These services were not included in our classifications of equipment and patient
monitoring services. (See Appendix C for examples of monitoring services.)

Patient education and training could be classified as either an equipment or a patient
monitoring service. Since we found this semice typically contains elements relating to
patient care, such as assessing the patient’s capacity to operate the device, we
classified it as a patient monitoring service.

We contacted the oxygen supplier for clarification when we had questions about the
type of service rendered. We gave suppliers the benefit of the doubt by giving them
credit for performing a service if unresolved questions existed. A registered nurse with
an extensive background in pulmonary care acted as our consultant and assisted us
with the analyses.

We initiated the data calculations with a database of 244 beneficiaries. We divided
the beneficiaries into two subsets of data: (1) those who had zero monitoring services,


                                             4
and (2) those with one or more services. We then grouped beneficiaries by the
number of billing months during 1991, from 3 to 12 months of service.

Some findings, such as the minimum and maximum number of days between sewices,
are based upon the number of days between monitoring services. These findings could
then be reported for those beneficiaries who had two or more services.

We based our analyses on a 30-day standard of service provision because suppliers bill
Medicare and receive reimbursements on a monthly cycle. Therefore, the 30-day cycle
wit h 60 and 90-day projections was both a logical and convenient standard to use to
assess services provided to beneficiaries. (See Appendix D for an illustration of the
calculations, statistical projections, and confidence intervals for percentages of
beneficiaries.)

We visited a number of suppliers in different States to verify the validity of
documentation and the credentials of supplier staff. We also contacted 22
beneficiaries to veri~ the type and frequency of services provided.

We contacted other third-party payers in the selected States, including VA hospitals,
Medicaid State agencies, and private payers, to obtain their policies on setices
provided to oxygen patients. We also obtained information from the DMERCS and
the NSC.

We met with a number of organizations, including the National Association for
Medical Equipment Services (NAMES)2, the American Association for Respiratory
Care (AARC), the Health Industry Distributors Association (HIDA), the Health
Industry Manufacturers Association, the National Board for Respiratory Care, ECRI
(an organization which tests medical equipment and supplies), and the National
Association of Medical Directors of Respiratory Care. The Food and Drug
Administration provided additional expertise on pertinent pulmonary equipment and
accepted respiratory care protocols.

our review was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




    2Formerly known as the National Association of Medical Equipment Suppliers


                                             5
                                  FINDINGS


HOME OXYGEN CONCENTRATOR                   THERAPY      NECESSITATES       SUPPORT
SERVICES.

Oxygen concentrator usage in the home necessitates that suppliers deliver a wide array
of services on a recurring basis. Oxygen use obligates suppliers to perform these
services because of its relatively complex, clinical, and life-sustaining nature compared
to most other DME devices.

The importance of support services, such as equipment and patient monitoring, for
oxygen concentrator patients is critical for the proper functioning of the equipment as
well as the effectiveness of the therapy it provides.

National accrediting bodies eistabhkh serw”ce standards for borne oxygen care.

Accrediting bodies such as the Joint Commission on the Accreditation of Healthcare
Organizations (JCAHO) and the Community Health Accreditation Program (CHAP)
outline equipment and patient care standards. The JCAHO has accredited oxygen
suppliers since 1988. In its 1993 manual, JCAHO requires oxygen suppliers to
perform ongoing routine and preventive maintenance with qualified staff. Such
maintenance must be documented. Approximately 27 percent of the responding
suppliers maintained JCAHO accreditation. About 50 percent of the suppliers stated
they were planning to seek accreditation in the future.

The CHAP also surveys and accredits home medical equipment companies. The
CHAP stipulates that suppliers must utilize qualified individuals to provide patient
education and training as well as periodic assessment of the equipment.

I?of&nal     organizations   endcme senice standmd   for home oxygen care,

Professional organizations such as the American Association for Respiratory Care
(AARC) advocate specific guidelines in patient and equipment care. For example,
one patient care guideline recommends that credentialed personnel:

   �    visit/monitor patients at least once a month, and

   b    assess patients, recommend changes in therapy, and instruct caregivers.

Equipment care guidelines recommend credentialed personnel:

   �	   reinforce appropriate   practices and performance   by the patient and caregivers,
        and




                                              6

  F	   assure that the oxygen equipment is being maintained in accordance with
       manufacturers’ recommendations.

The National Association for Medical Equipment Services (NAMES), which

represents more than 2000 home medical equipment suppliers, has been active in

promoting service standards for the oxygen therapy industry. In a Consensus

Conference on Home Medical Equipment Services sponsored by NAMES in 1993, the

attendees stressed the desirability of frequent, “regularly scheduled visits” for home

oxygen patients. The workgroup advocated visits to stabilized concentrator patients

every 30 to 60 days. The NAMES’ Code of Ethics relating to services is in

Appendix E.


Equipment manufacturers issue service manuals containing recommended

maintenance activities for suppliers to perform at specified intervals. For example,

DeVilbiss (model MC44-90) advises suppliers to check audible alarm systems and

oxygen concentrations on a monthly basis. (See Appendix F for an example of

maintenance recommendations.)       Healthdyne (models H-300 and BX-5000) prescribes

which maintenance functions should be classified by daily, weekly, monthly, and semi-

annual time intervals.


Some organizations support the use of concentrators equipped with indicators or

monitors. The indicators are warning systems to alert patients when the purity of the

concentrator output falls below therapeutic levels. These groups include the American

Society of Testing and Materials, a voluntary group which evaluates standards for

medical equipment, and ECRI, an organization which tests medical devices.


Payem rnunal.zte service requirements for beneficimies.

Payers, including the Department of Veterans Affairs (VA) and Medicaid State
agencies, also delineate service requirements. The VA hospitals enter into legally
binding contracts with their suppliers. The contracts set clear standards for items such
as required equipment and accessories, patient education and training, frequency of
visits, emergency care, documentation of services, and patient assessment by qualified
staff. A typical example of required services is contained in Appendix G. (A separate
report will compare Medicare reimbursements and standards to the VA as well as
other third-party payers.) Georgia State Medicaid prescribes specific services which
suppliers must provide at no additional reimbursement. Georgia Medicaid
reimbursement for rental of concentrators includes disposable equipment necessary for
operation, a monthly trip for checking the equipment, and patient training and
instruction.

Some third-party payers (such as the Minnesota Medicaid program) mandate that
suppliers only use concentrators with an indicator to monitor the concentrator output.
Medicare has no policy on oxygen concentrator indicators or monitors.




                                               7

SOME MEDICARE BENEFICIARIES RECEIVE EXTENSIVE                       SERVICES
WHILE OTHERS RECEIVE FEW SERVICES.

We found variation in the delivery of equipment and patient services to beneficiaries.
Some beneficiaries received extensive and periodic services, while other beneficiaries
received services on an erratic basis.

E@ipment      monitoring services

Equipment monitoring services include checking concentration levels, changing and
cleaning filters, and assuring the integrity of alarms and back-up systems.

Oxygen equipment must be maintained regularly to ensure the effectiveness of home
oxygen therapy. Unclean filters, for example, can affect the purity of a concentrator’s
output resulting in less than therapeutic or even harmful therapy for the patient.
Moreover, prolonged delivery of less than therapeutic levels of concentrator output
can result in hypoxia (a reduction of oxygen in body tissues below normal levels). In
severe cases, hypoxia leads to death of tissue cells. In less severe degrees, hypoxia
causes depressed mental activity and muscle weakness. Clinically, such a patient
exhibits decreased energy, shortness of breath, and cyanosis or a bluish skin
discoloration.

As Table 1 indicates, 8 percent of the sample beneficiaries did not receive any
equipment services. We projected this figure to the number of beneficiaries
nationally. Of the 18,024 beneficiaries who did not get any equipment services,
65 percent had been renting oxygen concentrators for 6 months or longer.

               Percent of Beneficiaries Receiving Equipment SeMces in 1991

Table 1.


 Beneficiaries Wzth O Services                                               8%
                                                                            18,024

I Beneficiaries With One or More Services                                   92%
 —                                                                         202,347

Ii Total   Beneficiaries Nationally                                         100%
IL                                                                         220,371

For the remaining 92 percent of sample beneficiaries who got one or more equipment
services, we conducted further analyses. We calculated how often they received one
service based on 30, 60, and 90-day cycles. These cycles correspond with the 30-day
billing periods and various standardized time periods as advocated by many
organizations involved in respiratory care.


                                            8

As Graph 1 illustrates, about 25 percent of these beneficiaries received an equipment
service every 30 days. Almost 47 percent received a service every 31 to 60 days.
Another 18 percent got one service every 61 to 90 days, while 10 percent received an
equipment service every 91 or more days.

Graph 1.


                        How Often Beneficiaries
                Received One Equipment Service*
                                       A6.9




                          24.6


                                                     18.1


                                                                  10.3




                             I    every 31-60 days      I    every 91 + days
                      every 30 days            every 61-90 daYs
                         ‘*Benefi-ciariea
                                       WhoReceive-Oneor Mo;e Services



To display the variation in the amount of time between equipment services, we
examined the number of days between services for beneficiaries who had two or more
services. We grouped the beneficiaries by the number of months they had been using
oxygen therapy. As Table 2 indicates, a wide range in the number of days between
services exists in each billing category. For example, one beneficiary who used oxygen
therapy for 12 months waited 223 days between equipment services, while another
beneficiary who also used oxygen therapy for 12 months received an equipment service
2 days following a previous service. This variation exists in each of the billing
categories.




                                              9

          Maximum and Minimum Number of Days Between Equipment Sefices*

Table 2

    Number of Billing
    Months for
    Beneficiaries
    Highest Number of
    Days Between
                           u
                           58     62     108   84    109    91     237     153   136    223

    Equipment Servkes
  Lowest Number of            5      3    1    10    10
  Days Between
IIEquipment Services

�lnclu&!s
        OnlyBeneficiaries
                       WhoReceived‘llvoor MoreEquipmentSeMces

Patient monitoring services

Although Medicare does not provide additional reimbursement for clinical patient
services in home oxygen care, many suppliers provided these setices and evaluations
along with equipment monitoring services. Examples of patient monitoring services
include taking vital signs, testing pulse oximetry, instructing the patient in proper self-
care as well as routine equipment care, and evaluating symptoms such as breath
sounds, sputum production, and skin color.

Nearly half (47 percent) of the sample beneficiaries received no patient services, as
shown in Table 3. This percentage represents 102,665 beneficiaries nationally. of
these beneficiaries, almost three-quarters were on oxygen therapy for 6 to 12 months.


                     Percent of Beneficiaries Receiving Patient Services

Table 3.


    Beneficiaries With O Services                                              47%
                                                                              102,665

    Beneficiary= With One or More Servkes                                      53%
[                                                                             117,706

    Total Beneficiaries Nationally                                             100%
Il...
   –..--–,. ___                                                               220,371




                                               10

For the remaining beneficiaries who got one or more patient semices, we calculated
the frequency of services based on 30, 60, and 90-day cycles (refer to Graph 2).
About 15 percent of these beneficiaries received onesemice eve~30 days. Forty
percent of these received one patient service every 31t060 days, while about19
percent had one patient service every 61t090 days. Approximately 26 percent
received one patient service every91 days or more.

Graph 2

                         How Often Beneficiaries
                      Received One Patient Service*
                    ‘“~


                      I
                 “i   I




                               I     every3140 days     I    every91 + days
                          every30 days           every61-90days
                             *Reneficisries
                                         WhoReceiveOneor MoreServices



As with equipment services, the time between patient services varied widely. We
ca Iculated the amount of time between patient services for beneficiaries who received
two or more services. We arrayed these beneficiaries according to the number of
months they had been using oxygen therapy. As Table 4 shows, a wide range in the
number of days between services exists within each billing category. One beneficiary
who had been on oxygen therapy for 12 months waited 334 days between patient
services, while another beneficiary, who had also used oxygen for the entire year,
received a service one week following the previous service.




                                               11

           Maximum and Minimum Number of Days Between Patient Semkes”

Table 4.


~                                  3     4“    5         6    ‘7””   i    9“’”I”lU”” ““~=
  Highest Number of Days           49    55    51        82    106   92   190   86   111    334
I Between Patient Services
~ Lowest Number of Days            5     12    1         7     4     2    6     25   22     7
,1Betsveen Patient Semkes

“Includes Only Beneficiaries Who   Received‘l’% or More Patient SeMctx


MANY BENEFICIARIES DID NOT RECEIVE SERVICES ENDORSED                                      BY
NATIONAL ORGANIZATIONS.

Many beneficiaries in our sample did not receive equipment or patient care as
specified in guidelines advocated by national accrediting bodies, professional
organizations, and third-party payers.

Equipment service guidelines for 77 percent of the sample beneficiaries did not meet
the standards set by the VA and AARC, both of whom recommend monthly
equipment monitoring services. 3 We found 34 percent of the sample beneficiaries did
not receive services according to NAMES’ standard, which advocates one equipment
service every 60 days. As Table 5 indicates, the percentages represent a projected
number of beneficiaries in the nation who did not receive equipment services
according to national standards set by these organizations.

Ninety-two percent of the sample beneficiaries did not receive the patient care
services recommended by the VA and AARC, which advocate a patient monitoring
service every 30 days. About 70 percent did not meet NAMES’ guidelines, which
recommend a patient service every 60 days.




      3 To calculate the figures for Table 5, we first added the number of projected
 beneficiaries who received zero services and the projected number of beneficiaries
 with one m- more services who fell into appropriate 30-day cycles. We then divided
 this sum by the total beneficiary population.


                                                    12
                 Percent of Beneficiaries Whose Oxygen Therapy SeMces
                    Did Not Meet Recommended National Standards*

Table 5.

                                                          Equipment         Patient services
~                                       ‘mdad               ‘GM-
    Department   of Veterans          1 service every       77.4%                 92.1%
    Affairs                               30 days           170,535              202,911
  American Assoeiatkm for             1 service every       77.4%                 92.1910
, Respiratory Care                        30 days           170,535              202,911
                                                             34.3%               70.5%
~                                 ~   lse~~a~~v              75,602              155,412

*Total population of Medicarebenefieiarks nationallywho use oxygen concentratorsin 1991=220s71.

Many suppliers cited various reasons for not providing semices. One supplier reported
that he occasionally “overlooks” patients. He encouraged patients to contact his
company if no visits had been made for a couple of months. We contacted another
supplier who had not submitted any documentation and asked if this was an
inadvertent omission on his part. The supplier said the beneficiary lived too far away
to visit and stopped by occasionally to pick up filters and tubing to do his own
maintenance. These practices conflict with JCAHO guidelines which recommend
periodic maintenance services conducted and documented by a qualified person.

MEDICARE POLICIES CONTRIBUTE                    TO THE WIDE VARIATION             IN
SUPPORT SERVICES.

We believe that the lack of standards or financial incentives for support services in
1991 contributed to the wide variation in services which our analysis found. Since
there were no mandato~ standards for suppliers set by Medicare and no payment
consequences for different levels of service, both the quality and quantity of services to
Medicare beneficiaries differed from one supplier to another.

Even though HCFA implemented business standards as part of its new claims
processing system, they have not detailed specific service requirements for
beneficiaries receiving home oxygen therapy. There are no provisions regarding type
or frequency of services that should be rendered, record-keeping practices, emergency
care, patient education, home safety assessments, or infection control practices.
Further, neither the supplier nor the supplier’s staff are required to meet minimum
licensing, certification, training, educational, or credentialling standards.

The variation in levels of services to beneficiaries also demonstrates a payment
inequity among suppliers. Some suppliers provide regular ongoing service, while
others do not. Although Medicare reimburses fixed payments to oxygen suppliers


                                                13

within designated geographic areas, the levels of services provided to beneficiaries
residing in these areas varies considerably. Thus suppliers providing necessary
services, as delineated by national accrediting bodies, professional organizations, and
many third-party payers, are placed at a competitive disadvantage. Beneficiaries may
not be knowledgeable enough in many cases to distinguish between “high sexvice”
suppliers and “low service” suppliers, For example, one DMERC official reported that
some Medicare beneficiaries believe they have to assemble the oxygen concentrator by
themselves. The HCFA has no recourse against a company providing minimal or
sp{~radic services because it has not adopted semice standards against which to
measure supplier practices,




                                           14

                     RECOMMENDATIONS

We recognize that ourdata represents thestate ofcareprotided    by suppliers to
Medicare beneficiariesin 1991, and concerned organizations have implemented
improved standards of care since then. Nonetheless, itseems clear that Medicare
policies could better support those efforts.

WE RECOMMEND THAT HCFA PRODUCE A STRATEGY TO ENSURE
THAT MEDICARE BENEFICIARIES RECEIVE NECESSARY CARE AND
SUPPORT IN CONNECTION WITH THEIR OXYGEN THERAPY.

We offer several options for HCFA to consider when developing this strategy:
educating providers and beneficiaries, promoting standards, or setting minimum service
requirements for Medicare suppliers. These options are not meant to be exhaustive
or prescriptive; rather, they serve as an indication of the range of possibilities available
to HCFA in developing its strategy.

Educating l?ovidim   and Beneficiaries

The HCFA could initiate       a program to educate providers and beneficiaries about the
kinds of services available    and recommended by national organizations for patients
receiving oxygen therapy.      Such an educational initiative might be most effective if
undertaken in partnership      with relevant professional associations. This could include
these options:

1.	    Educating health professionals (physicians, hospitals, etc.) to question, seek out,
       and refer patients to suppliers providing recommended services. This could be
       accomplished through articles in intermediary and carrier newsletters and
       bulletins directed towards providers.

2.	    Informing beneficiaries of the kinds of services they should look for from their
       suppliers. This could be achieved by including a section in HCFAS Medicare
       Handbook on oxygen services, inserting educational messages on the
       Explanation of Medicare Benefits (EOMB) form, or using the expertise of Peer
       Review Organizations or Information Counseling and Assistance Grants to
       reach out to beneficiaries receiving oxygen therapy.

Educational initiatives directed to providers and beneficiaries would likely be the least
onerous option available to HCFA. With consumer education, suppliers providing
higher levels of service should receive more Medicare business. As a result, more
beneficiaries would receive higher levels of care and their oxygen therapy would likely
be more effective and therapeutic.




                                               15

timoting      Standimh

The HCFA could promote standards foro~gen therapy setices              which suppliers
should provide to Medicare beneficiaries. For example:

1.	        The HCFA, perhaps with the assistance of the DMERCS, could take a
           leadership role in promoting the standards endorsed by JCAHO, CHAP,
           NAMES and other concerned organizations to the Medicare supplier
           community.

2.	        The HCFA could develop payment policies which provide financial incentives
           for suppliers meeting specified standards. This could be accomplished in a
           number of ways. Suppliers who are not accredited, for example, could receive
           a different reimbursement from Medicare from those which are not accredited.
           Another option could be to designate accredited suppliers as “preferred
           providers” for purposes of referrals for Medicare business.

Promoting industry standards is just another way to encourage better and more
consistent practices among suppliers. This is more likely to be effective if linked to
Medicare reimbursements or the flow of referrals in some way; however, this approach
would add a layer of administrative responsibility for the program.

Setting Afininuun Requirements

The HCFA could establish a minimum level of service requirements for suppliers.
This could be accomplished and enforced through a number of mechanisms. For
example, any one or a combination of the following strategies could be used:

 1.	       Accreditation -- The HCFA could require suppliers to become accredited by a
           nationally recognized organization such as JCAHO or CHAP.

2.	        Certification -- Many suppliers meet accreditation requirements but, for
           financial or other reasons, have not undergone an inspection process to become
           officially accredited. In these cases, suppliers could certify (see below) that they
           meet all such requirements.

 3.	       Licensure -- We have not surveyed States to determine what licensing
           requirements might be placed on DME suppliers in certain States. We do
           know, however, that in some States suppliers must be licensed by the agency
           which regulates pharmacies. It may be that State licensure could be a vehicle
           to derive minimum standards, although a model licensure law developed by the
           Federal government might be necessary for this approach to be effective.

 Suppliers could certify annually to their DMERCS that they meet one or more of the
 proposed alternatives--accreditation, certification, or licensure. Suppliers found to be
 misrepresenting information in their certifications would have their billing numbers


                                                16
suspended. The HCFAcould ensure compliance through random checks, beneficia~
surveys, and investigations of beneficiary complaints.

Although this is the most demanding of the options we present, we believe it provides
HCFA with the most assurance that standards are being consistently met by all
suppliers. Additionally, it gives HCFA authority to require corrective action from
suppliers found to be providing substandard or inappropriate care.

COMMENTS ON OUR REPORT

We solicited and received comments on our draft report from HCFA and other
concerned organizations, which included the National Association for Medical
Equipment Services (NAMES), the Health Industry Distributors Association (HIDA),
the Health Industry Manufacturers Association (HIMA), and the American
Association for Respiratory Care (AARC).

The full text of their comments can be found in Appendix H. A summary of
comments and our response follows.

HCFA

The HCFA agreed that suppliers should provide necessary services in connection with
the oxygen equipment and supplies they furnish. The HCFA concurred with our first
option to educate providers and beneficiaries about the kinds of services available and
endorsed by national organizations. They also provided examples as to how the
education could be implemented. The HCFA felt our other options would not be
feasible because of anticipated administrative burdens. Rather than promoting new
standards and accreditation, however, HCFA indicated that the existing supplier
standards could be used to ensure improved setice to beneficiaries. As an example,
HCFA said that a supplier that does not follow the equipment manufacturer’s
maintenance procedures would be in violation of the standards. The HCFA will
continue to encourage the DMERCS to review suppliers for compliance with Medicare
requirements and standards.

NAMES

The NAMES supports our recommendations for increased supplier and beneficiary
education along with industry standards to enhance the level of services. The NAMES
a km stressed its commitment to promoting service standards in the indust~,
encompassing minimum supplier service standards and supplier and beneficiary
education. Further, NAMES volunteered to work with HCFA to develop specific
supplier standards.

The NAMES questioned some of the findings based on the age of the data and the
supplier sample. They believe the industry has moved consistently and aggressively to
becoming more service oriented. According to NAMES, JCAHO accreditation was in


                                           17
its infancy in 1991; relatively few suppliers had been accredited at that time. Today,

more than 1400 suppliers have received JCAHO accreditation.


The NAMES also took the position that our inclusion of past industry abuses and

prior studies was not relevant to the purpose and objectives of the current study. The

NAMES also made a number of technical comments.


HIDA


The HIDA agreed with our conclusions concerning inconsistency among suppliers with

respect to the level of services provided to oxygen patients. In addition, HIDA voiced

support for our recommendation option to establish strong supplier standards. The

HIDA said that defining standards of service would result in the provision of the

highest levels of service and care for Medicare beneficiaries. The HIDA advocates

different levels of standards based on the type of services a supplier provides, such as

basic standards for traditional DME or more stringent standards for patients receiving

ventilator care or home infusion therapy. The National Supplier Clearinghouse could

be the entity to develop and monitor stronger standards, according to HIDA.


The HIDA felt our recommendation option relating to different payment amounts tied

to which suppliers who do or do not meet standards requires further analysis. In

particular, HIDA thought that we should consider levels of service from the patients’

needs in addition to suppliers’ capabilities. Additionally, HIDA made a number of

technical comments.


HIMA


The HIMA provided brief comments on the draft report. Oxygen therapy should be

characterized as “supplemental” oxygen rather than “life supporting,” according to

HI MA. The HIMA pointed out that FDA considers oxygen concentrators to be “non-

life” support devices which provide supplemental oxygen. In our recommendation

option on establishing minimum requirements, HIMA felt that HCFA should also

require monitors or indicators which are devices which signal concentrator failure.

Furthermore, the absence of monitors or indicators should result in less

reimbursement than units which include such devices. Some industry equipment

standards require that monitors or indicators be included as part of concentrator

equipment, according to HIMA.


AARc
The AARC agreed with our findings and recommendations.           The AARC stated that
support services, in particular, patient assessment, is a key element of home oxygen
therapy. Furthermore, inconsistencies in providing such services among suppliers
cannot be permitted. Until minimum setice standards are mandated by HCF~
inappropriate care will abound, AARC added.



                                            18

The AARCexpressed concern about some aspects of the report. For example,

AARC felt the sample size was too small and could affect the statistical validity of the

report. Furthermore, they said that broad comparisons are made between Medicare

and the VA. They suggested that we emphasize the differences between the Medicare

program and the VA program instead of broad comparisons. The AARC also

included some technical comments in their response.


OIG RESPONSE


Recommendation

We appreciate the positive responses we received to our recommendation.       of all the
reviewers who commented on our recommendation, HCFA was the most cautious in
considering options for promotion of standards or setting minimum requirements.
The HCFA believes that supplier business standards, newly in place, will address some
of the problems we identified. While supplier standards can be used as a foundation
for required services, they are neither explicit nor comprehensive in addressing the
needs of beneficiaries on oxygen therapy. The HCFA also expressed concerns about
resources required to promote or set standards. While we appreciate these concerns,
we believe that innovative approaches may be possible if HCFA pursues a productive
partnership with concerned organizations, such as those which commented on our
report. The HCFA may wish to explore these options in more detail with such
organizations before committing to a specific course of action. We also encourage
HCFA to consider ideas beyond those which we have laid out, which might also
accomplish the objective of ensuring beneficiaries receive needed services. Again,
collaboration with industry and beneficiary organizations might identi@ some of those
other approaches.

Technical Comments

In response to questions about the size of our sample, we have expanded on our

explanation of the confidence intervals for the sample and also refer readers to

Appendix D, which provides more details on our projections and their precision. We

also have acknowledged in this final report, as we did in the draft, that the data is

based on 1991 claims and services and that our findings relate to Medicare

beneficiaries’ experiences in that year. In fact, we have prominently acknowledged

that concerned organizations have worked to develop guidelines and standards since

that time. Nonetheless, Medicare policy could better support these efforts.


While we understand NAMES’ comment that prior work on the general topic of

oxygen therapy might not be of specific relevance to these findings or

recommendations, we believe that many readers will be interested in the prior work of

the OIG on this general subject. As a result, we have retained this discussion.


 Likewise, while we understand AARC’S concerns about broad comparisons between

 the VA and Medicare and agree that there are certainly differences between the



                                            19
programs, the scope of our inquiry is necessarily at a more general level. In this study,
the VA standards represent one of several points of comparison to Medicare
experience. Consequently, we have also retained this discussion.

Finally, in response to other technical comments we received, we have made a number
of changes in the report to clarify or correct the use of terms.




                                           20

                           APPENDIX                   A


                       MEDICARE      SUPPMER     ST~ARDS


1.    In response to orders which it receives, a supplier must fill those orders from its
      own inventory or inventory of other companies with which it has contracted to
      fill such orders or fabricates or fits items for sale from supplies it buys under a
      contract.

2.    A supplier is responsible for delivery of Medicare covered items to Medicare
      beneficiaries.

3.    A supplier honors all warranties, express and implied, under applicable State
      law.

4.    A supplier answers any questions or complaints a beneficiary has about an item
      or use of an item that is sold or rented to her or him, and refers beneficiaries
      with Medicare questions to the appropriate carrier.

5.    A supplier maintains and repairs directly, or through a service contract with
      another company, items it rents to beneficiaries.

6.    A supplier accepts returns of substandard (less than full quality for particular
      item) or unsuitable items (inappropriate for the beneficiary at the time it was
      fitted and/or sold) from beneficiaries.

7.    A supplier discloses consumer information to each beneficiary with whom it
      does-business, which consists of a copy of these supplier standards to which it
      must conform.

8.    A supplier complies with the disclosure provisions cited on the HCFA-192
      form.*


* Refers to the disclosure of ownership and control information by the supplier
business entity on the enrollment and application form for a Medicare billing number.




                                          A-1

                              APPENDIX                     B


ONE SUPPLIERS        MONTHLY CHECKLIST FOR OXYGEN CONCENTRATORS





‘J     Clean exterior of unit

c1
    Clean or replace filters

-1     Clean interior of unit

‘i-l   Check for signs of overheating*

a      Check foam for proper placement and deterioration

u      Check fan for proper operation

c1     Check unit for leaks

El     Check system pressures

n      Check cycle time

L1
    Check outlet pressures and temperatures

c1     Check unit for proper air flow


rJ     Read concentration at maximum liter flow


id     Read concentration at prescribed liter flow





* Signs of overheating can be heat dots on sieve beds, changing color, yellowing and cracking of
finings warpage of plastic parts, etc.




                                              B-1

                               APPENDIX                    C

           EXAMPLES OF CLASSIFICATION            OF MONITORING      SERVICES

Examples of Equipment Monitoring Services:

          Changing Filters

          Cleaning Filters

          Checking the Oxygen Flow Rate

          Checking the Back-up System

          Cleaning the Cabinet

          Checking the Concentrator Purity (percentage)

          Concentrator Service/Check

          Service Call


Examples qf Patient Monitoring Services:

  �       Reports on the Condition of the Patient

  .       Pulse, Blood Pressure, etc.

  �       Patient Checklist to Ensure Understanding of Equipment and Care

  �       Phone Calls to the Patient Which Include In-Depth/Comprehensive  Patient

          Care Questions

Equipmeru Set-Ups Classified as an Equipment Monitoring Service:

Included When:

Clear Set-Up Documentation/Matches    with Billing Start Date

Not Included When:

No Set-Up Documentation is Found

Already Classified as a Separate Equipment
 Service
No Documentation of Any Sefice, Despite
 Billing Dates

Examples of Equipment Drop-Ofls:

   �      cannulas

   �      humidifiers

   �      tubing

   �      water-traps

   �      trachea trays

   �      E-tanks

   �      D-tanks

   �      H-cylinders

      �   Refills (liquid)

      �   Portable Equipment Not Counted

      �   Nebulizers and Drugs Not Counted




                                             c-1

                             APPENDIX                     D

                   CALCIZLAITONS     z4ND CONFIDENCE          lN1’ERVXLS

-tionsofthe         Number of Sewices Every 30, 6Q and90Daysj        andtheM~
and Maximuni N&w       of Days Beiween Skrvkes:

Bene 1:

Start Date
                                                                     End Date
Jan. 1               Feb. 1                      Mar. 1
                        Apr. 1
  x       31 dys      X            28 dys         x              31 dys          x
       Total of 2 Services: (Feb. 1, Mar. 1)

Bene 2
Start Date                                                                      End Date
Jan. 1            Feb. 21              Apr. 4                  Jun. 1           Aug. 15
  x     51 dys      X        42 dys     X        58 dys         X     75 dys     x
       Total of 3 Services: (Feb. 21, Apr. 4, June 1)

NUMBER        OF SERVICES EVERY 30 DAYS:

STEP 1:        Find the total number of days between the start and end dates:

         Bene 1: 90 total days between the start date and end date
         Bene 2: 226 total days between the start date and end date

STEP2	         Calculate the number of 30-day periods in which the
               beneficiary could have received a semice based on the
               total number of days between the start and end dates:

         BENE 1:      90/30= 3
         BENE 2:      226/30= 7.53

STEP 3:	       To find the proportion of services every 30 days that the
               beneficia~ actually did receive, divide the actual number
               of semices by the number of services the beneficiary could
               have received given the total number of days between the
               start and end dates (from STEP 2):

         BENE 1: 2/3=    .66 services every 30 days
         BENE 2: 3/7.53= .39 semices every 30 days




                                          D-1

                                                   APPENDIX                                                  E





                                                                    J!!&
                                                                    NAMES
                                                                            mu  .,”.




.   .



                CODE OF ETHICS
              Ha+ngbeen aixeptedinto                     membership in the NationalAssoUa~                                ofM-@-~t
        Suppliets.we do hereby subsonbe whout resenmnon to the A~           ‘s Code of Ethics.

             7%epurpose of the tie   of Euks shd be to set end impfova ~         ~in    tie
        ptztcfice of protding home medid equipmmt anti services. To maintainthe efhkfil oonduct
        and integrdyofth&AaaooWon. a member pkdges to abide by the fOff-

         1.   To render the highest Ievei of cam                      pmmpdy             and    competenffy -               ~~ a~             tie
              health and safety of tie patient.

        2.    To serve a4 pm”enta ragacdless of face, crwd,                                    nationaf origin       ormm        ofiJ/ness-

        3.    TOprotkfe tviaMyhome medicd equ$nnent end servioes whkh sss wPW@@                                                              ~r
              the patients’
                          needs.

        4.    To hsbuct the patients antior                      care givers           m the    proper use of the we~

        5.    TO-            fWY   and acuuately                  to patients an~or cam ghws  patiWS  rights and
              ob@stions mgafdrng              me ~nw$              sale and sefvice of home meokzd -enc


        6.    TO ~           me    &d~f&/                na~~       of tie pa~~&’                ~~            and not ti dkdosS SIKh
              it)hmadm       witho~         p~~r         a~o~,                 ~pt              ss    ~iti       by hW.

        7.    To ~       to expand and impnnfeprvfeasiondknowledge and @@ssOas to
              /VOtddePstfents w“thequipment and senioes which are ooflfilWSdY -.

        8.    TO ~       ~   bo~      F@e~/             and /@        &ws      and ~@ations                   Whti     govern   the   home
              medical equipment industry.

        9.    TO ati    ~’sating,      di~     or ~~,       wi~ a sou~      of pati8nt &Olds /h a
              “-       mfemtl arrangement” whereby patien~ are direoted to -             a SW@er of
              ~      m-         equipment in derogation of the patients’ rights to se&ot the sup@e=
              of meir choice.

        10. To act in good        faith:@          be   honest.     Wand                  far        to #/   Wnoemd.




                                                                         E-1

                                      APPENDIX                                 F
                     MANUFACTURER%                  MAINTENANCE                    PROCEDURES


Every OeVCVMC44 is thoroughly          tested and              8.   Routine Maintenance

‘burned-in” at the fa~ory to make sure that all                          Humidifier   - The humidifier    (6 Fig. 3)

                                                                    1,
of the produ~ specifications are being met, To
                                                                         should be cleaned daily or as recom­

assure continued trouble-free petiormance vari -
                                                                         mended by the manufacturer. It should

OUS maintenance      procedures sbouid be per-
                                                                         be washed in warm soapy water,ri nSed

formed on a regular basis by a qualified OeVilbiss
                                                                         thoroughly, and refilled. Be CarefUl not to

dealer. The foll~ing    maintenance instructions
                                                                         overfill.  The tubing    and prescribed

are provided as a guideline.
                                                                         canmda or mask should aiso be cleaned

A.   Testing and Calibration                                             according to $SIanUfaCtUrer’S
 recommen­
                                                                         dations.
     1. Turn the power switch to the ‘ON- posi­
           thtt and dowfy turn the flow meter con-                  2.   Gr~ particle Fiiter - The gross particle
           Vd knob (6 Pig. 2) and note that the flow                     filter (6 Fig. 4) should be removed and
           rate is variable from O to 5 liters per                       cleaned weekly.
           minute.
                                                                         To remove and clean:
     2.	   When the unit is first turned on (or if not
                                                                         A.   Turn the knob counterclockwise t/4
           used for an �xtended perid of time) it
                                                                              turn and remwe the entire assembly
           may require up to 30 minutesfor the oxy-
                                                                              (See fig. 5).
           gti concentrsnion to stabilize. The fiow
           raw may drift stightly during this period                     B. Wash the assembly in warm soapy
           of tfme and the Oxygen concers~tion wiii                         water and rinse. Shake excess water
           9Mdually increase to a steady value at a                           from the filter.
           specific fiow rate.
                                                                         c.   Use a lint-free cloth or paper towel to
     3.	   When the oxygen concentration          has                         dry filter. Be sure Tilter is completely
           stabilized. an oxygen analyzer shotdd be                           dry before repiaang.
           attached to the oxygen outlet fitting (7
            fig. 2) to testoxygen concentrations at                      D. Filter may       also   be   cleaned    by
           various fiow rate setdng% The analyzer                           vacuuming.
           thdd     be cdibmted prior to taking an                       NOTE: The gross padcle filter shouId be
           oxygen percentage reading (See note                           monitored more closely in enw.ronments
           under 6-6). As the flow rate is increased.                    with abnormal amounts of particulate
           tlw percent of omen in the delivered gas                      matter in the air. Operation     of the
           decreases. though the actua~ volume of                        DeVO/MC44 without the gross panicle
           oxygen delivered per minute ~s greater.                       filter will prematurely occiude the felt
           The range of oxygen delivered at the                          pre-fdter and cause a decrease in unit
           OUthM for various flow rates IS shown m                       performance.
           the graph beiw for the MC44.
                                                                    3.   Felt Pm-filter - The felt pm-filter (2 Fig. 7)
                                                                         should be changed approximately once a
               100
                                                                         month under normal conditions.

OXYGEN                                                                   To repiace the pr&ilteC
CONCEN-         90                               MC44                    A    Rotate the filter housing (3 Fig. 7)
TR4TION                                          (llSVdt)                     ccruntercfockwise to remove it from
(Percent                                                                      the intake bacteria filter (5 Fig. 7).
 ~ 3)
                80                                                       8.	 RemH the cap ( 1 fig- 71 on *e filter
                                                                             housing and pull out and discard the
                   m                                                         used filter pad (2 Fig. 7).
                70 ~
                     01234S                                              c. Insen a new    felt prefilter pad into
                                                                              the housing and replace the cap on
                     FLOW (Liters per Minute)                                 the housing.
                                                                         D. Place the filter housing  on the bac-
            Oxvoen Production    w   Flow Rate                              teria filter and turn clockwise until
                                                                            snug.




                                                            F -1

             4.    Intake   eaaerta   Filter - The Intake bacteria      1	    Final Eacterla Ftlter - The final bacteria
                   filter (S Fig. 6) should be !nspected at the               filter [3 Fig. 12) shou~d be changed a$
                   same time the felt pre-fdter is inspected                  needed (approximately         once a year under
                   and changed when needed (approxi­                          normal condnions).
                   mately every SIXmonlhs).
                                                                              To replace the final bacteria filter:
                   To replace the intake bacteria filtec
                                                                             A.    Loosen the cabinet fasteners        on the
                                                                                                                                .
                   A.	 Pull the bacteria filter out of the                         top ana sfdes of zhe umt.
                       rubber grommet (See Ffg. 6).
                                                                              8.   Swing the front cover to the right.
                   B. Remove the felt pm-filter assembly
                                                                             c.	   Remove hose clamp and hose from
                   c	    Place the felt pre-filter assembly on a                   �ach �nd of filter and discard filter.
                         new bacteria filter.
                                                                             o.	   install new bacter]a filter and secure
                   o.	   The complete filter assembly can then                     with hose clamps.
                         be insemcf into the rubber grommet.
                                                                             E.	 Reptace aver         and secure with cabinet
.   .        5.	 Audible Alarm - Testing the audible alarm                       fasteners.
                 system should be included in a routine
                                                                       2.	 Compr-r       filter. The comoressar HEPA
                 maintenance    program. It should be
                                                                           filt~ ( 13 Fig. 14) should be changed at or
                 checked on a manthfy basis.
                                                                           before 25.000 hours of unit operation.
                  A	 To test the audible        alarm system,
                                                                             To replace compressor filtec
                         renwve the line cord from thel 1S voit
                         AC outfet and turn the power switch                 A	 Refer to Setvice htruction 8 to Open
                         to the ‘ON- position. If the alarm is                  @zinet covers. The back cover should
                         not heard or soundsweak. rep(ace the                   be completely removed.
                         9 W battefy (6 Fig. 14) located on
                         the �ccumulator shelf next to the                   B.	 Cut plastic cable tie that holds HEPA
                         fi&mssesntsly.                                            filter in piece.

                  B.     Plugtheunithttoa    115va4t ACoutfet                c	    Loosen hose ciamps and remove bfack
                         a-- turn the power switch to the                          rubber hose from both ends of filter.
                         “ON” pti~        The aiarm wiii sound
                                                                             0.	 Install new HEPA filter with air flow
                         munentarily. If the alarm is not heard                  directiort?d arrow pointing d~
                         or sounds weak replace the 9 volt                       and secure with plastic cable tie.
                         battery.
                                                                             NOTE: Holes for cable tie --—-
                                                                                                         ar@ located
                  NOTE: Replacement       batteries can be                   directly behind left sieve bed. Thumb
                  purchased Iocdly and should be alkaline
                                                                             screws and bracke~ that secure beds to
                  bamecies or equivalent.                                    unit must be removed so that cable tie
            6.	 02 Concentrations - Oxygen concentra­                        can be ihsemed into holes.
                tions should be checked monthly in                           E.	 Attach black rubber hoses to each end
                accordance   with the �stablished test                           of fifter and secure with hose ClamPS.
                procedures (Section 4, A).
                                                                             F.	 Replace cabinet covers and secure
                  NOTE: Before checking concentrations,                          with cabinet fasteners.
                  the oxygen analyzer sftasdd be property
                  calibrated using � 100% pure oxygen                  3.	 Compressor - Inspect and change if
                  source. It should �lso be rtoted that                    neceesaq the internal component       at
                  chngee in tempemtwa. 8kitud& or isu.                     10,OOQhour intervals of unit operation.
                  -     -Y   ~    the oxygen concen­                       Seaservice ~nstrucdon ~.
                  tsdonraedmgasshown         bythea~.
                                                                             NOTE:     All routine     and   periodic
                  Tlterebre.    the analyzer     should be
                                                                             maintenance     should be recorded      by
                  ~          in simi&r conditions to witera
                                                                             listing the date and hour re8diftgS in a
                  theconantnmr     is located.
                                                                             maintenance      schedule  iike the one
        c   Periodic Maintenance                                             shown on the following page.




                                                                     F -2

                        ,   1   I   i   I




.   .




             -


        o
        z
        <
        z
        UJ
        VI




                 F -3
                            APPENDIX                    G


                             TYPICAL VA CONTRACT
                          Oxygen Concentrator Requirements


Contractor to furnish all labor and equipment required to provide rental service of
oxygen concentrators for VA beneficiaries in their homes within geographical
jurisdiction of the VA Medical Center (city, state).

Contractor will be responsible for providing the VA beneficiary with all disposable
such as nasal cannulas or masks, tubing, connectors, nebulizers, humidifiers and bottles
(Aquapak, or equal substitute). Also, the contractor will be required to furnish
emergency back-up systems: “E’ size cylinder or “H’ size cylinder as appropriate, cart,
fk~wmeter/regulator, wrench, etc. and will also provide the vendor service for the refills
of these cylinders.

MONTHLY RENTAL COST FOR HOME USE WILL INCLUDE THE
FOLLOWING:

o	 02 concentrator and necessary disposable equipment, i.e., nasal cannulas or mask,
humidifiers, nebulizers, extension tubing, etc. Replacement of disposable PRN.

o Initial set-up and education of patient by qualified respiratory therapist.

o	 All equipment and supplies necessary for back-up 02 to cover response time in
case of equipment or power failure.

o Monthly equipment maintenance       and inspection visits.

o	 Monthly monitoring visits by a registered or certified respiratory care practitioner to
evaluate all aspects of the services being provided to the patient.

o Equipment must be cleaned and semiced on a regular basis.

(~ Delivery within the VA facility’s jurisdiction service area to include the counties
shown on Page_.

o Contractor will provide service 7 days a week, 24 hours a day.

o	 Concentrators furnished under this rental agreement shall be covered by U.L.
Listed Reference No. E71727, grounding required, be double insulated with an
operating pressure of 25 psi - compressor thermally protected. The concentration
shall be 9394 to 100% plus or minus 3%, oxygen at all flows and flowrate shall be


                                           G-1
sufficient to provide 1, 1.5, 2, 3, or 4 liters/minute. Unit shall be equipped tith an
audible alarm and warning lights for signaling concentrator failure. The unit shall be
sufficient to require only minimum semice by VA beneficiary; i.e., twice weekly
external filter cleaning, etc.

o	 Rental price indicated shall include VA beneficia~ and family training, observation
in use, follow-up service on rental unit every 6 to 8 weeks and 24-hour emergency
service coverage 7 days a week. Contractor to provide each VA beneficiary with the
telephone number for obtaining such service.

o	 All units currently in use as stated in the requirements must be installed and
operating inthe VA beneficiary’s home within forty-five (45) calendar days after
award of contract. The successful bidder will be required to coordinate exchange with
the present contractor for the transition (in the event the present contractor is not the
successful bidder).

o Contractor will be responsible for providing patient with all disposable and back-
up systems as appropriate. Copy of all documentation of service calls and routine and
emergency visits to the VA beneficiary’s home, and visit assessments will be sent to
Chief, Prosthetic Service.

o	 Because of the age, condition, etc., of the VA beneficiary for whom the service is
being provided, it is recommended, particularly in cases where a unit is being
exchanged due to equipment failure, that the exchange be accomplished with a unit of
the same type to avoid unnecessary confusion.

() SPECIAL NOTE: Descriptive literature must be furnished with offer on the unit
he/she proposes to furnish under this contract. Please indicate below nomenclature of
this proposed unit (Brand, Model#)                                            .




                                          G-2

                   APPENDIX                 H





Comments from the Health Care Financing Administration


Comments from the National Association for Medical Equipment Services


Comments fkom the Health Industry Distriiutom   Association


Comments from the Health Industry Manufacturers   Association


Comments from the American Association for Respiratory Care





                                H-1

    10/25/94        13:42        =410     966 5305                     HES   OIG OASKCFA                                       Qloo2/oo5


                                                                                               —     - Health Care
               13EP.%RT}lEXT
                           OFHE.%LTH& HUMAN 5ERWCES                                                    Flnar:.ac Adm-.sva:.ofi

               —            .—   —                                                          ——         -. —----            -----
                                                                                                       Memorandum                      -
                                                        ,.
                OCT 201998
               Bruce C. Vladec
               Administrator         w              @




               O*    of hspector General (OXG) Draft Report                          “C)xygen Qmcermator         Sefi-”
               (OEI-O3-91-O171O)

               June    Gsbbs &own



               We revimmd the above-re~ced                        report which found that some M-c
               benties           who use home qgem                m~n~toy          meqq     remdve   extensive    semkes
               while   others    meek   few.

               We agree with the report’s reeomrnendatiou that educating providers and
               beneficiaries about standards for necessq and standard care is impo-~   ~~ever~
               we believe that options 2 and a uy nd b &adble because of the ixih~~t
                   ,.
               dmmstrative    burdens

               Our detailed mmmem                on the report’s fidings           and recommendation      are attached
               f= your cwnsiclcratiom            tile        ym   f~   &   ~~ni~          to fiew    and   comment        on
               this draft   repor&      Please    contact us if you would like to disouss our ~nts                        and
               response.

               Attachment


.
10/25/94       13:42         S41O    966 5305             HES OIG OAS HCFA                          5 003/005
                       —..                      ,..   -




                       ~
                               on Office of ]mmector General (OIG) Draft ReJOrK
                                         mGxwen CXmcentrator Services”
                                                PE 1-03-91-01710

           Wcormn endation

           HCFA should pdum      a strategy to emre that Mcdicarc kte&iaries           re4w
           necemary care and support in eonneotion with their cqgm therapy.



           We agree that suppliers should puvfde ~~               services in cmrxxtion with the
           oxyga   qdprneat         and supplies they fIUIL@Land that HCF’A should be doing more
           to ensure that Medicare benefioktrjes -tie         the appropriate level and quali~ of
           qgen smvices that they require.

           Ra*er than promoting new standards and accreditation, however, we belhwe that tbe
           existing supplier ~        could be used to improve service to beneficiary      FOT
           qlq       if ~ppker practices today are the same as those ~rted      in 1991, itwould
           P       that tbe supplien are violating the recently irnpiernented Medicare au~lier
           standard%

                   -- A suppiier that does not follow the maintenance procedures of the
                      equipment’s manufacturer would be in violation of standard t3vcx ‘A
                      supplier mrktains and repaim. . . items it has rented to beneficki=.”

                   -   In addition, standard four, “Answering any questions or complain~ ffOUI
                       benefiti        standard tiq “Requiring suppliers to be responsible for
                       delivery of ~       and standard seve~ “Requiring disclosure of consumer
                       tif-ti       to beneficiaries,” require ovemll education of the patient end
                       family regarding the use of the equipment

           HCFA will conthwe to eneonragc the tile          ~edicid equipment (DME) regionai
           carriers to review suppliers for WXOpiiMlcem“thMedicare rcquksnents and
           standards. The DME regional cam”ers are required to folhw IIp on beneficiary
           complaints that they or the Nationai Sq@ier Clearinghouse (NW) reoeim In
           additi~ one of the tions         for obtaining a supplier mnzber reqnhes each
           applicant to nti any liceq axtifkatio~ Or~tion               required by the State
           where the supplier does business. The NSC is Imflding a data base of StitC
           requirements end wiU rendmrdyselect applicants fcx veri6c-ion.
10/2s/94         13:43   =410   066 630S             HES OIG OAS ECFA                             ktl004/005




 .
           Page 2

           We  will also pursue pruviding further specificatioIM k manual instructions to state

           exacdy what is re@rcd under the cunent supplier standards for oxygen *N-
           For the other patient monitoring services described in the report that am not
           encompassed in the current standards, H(XA W ~mider whether it would be
           4T-K         ~ -       nppliem to provide such semioes

           F~,    weagreewitbthe rceommendatfon to educate prcwiders and benefkiarie%
           -d m inchk     Mdkare snpplier standards information in our beneficiary ~d
           prcwikr echmation -~



           HCFA could initiate a prognnn to educate p~~          and beneficiaries abcmt the
           kinds of services available and Tecommended by national organization for patienti
           _         qen     therapy. Such an educational initiathw might be most effective if
           Unhtakell in partnemhip W“threlew%lntpmkssional associations

           HCFA Remmse

           We concur with the reeommendation of an initiative to eduoa+ providers and
           btIIcficMes which vvdl enable Medicare bin-es        to make informed deoisions
           about their health care needs and help health ~  pmfcsaionals provide or mange
           for the best possible medkd care for bend-           The i)ME qional carriers can
           me carrier newslettma to advise health profession ais and providers about the
           importance of senkin g -CD      equipmmt   and meting the supplier standards
           Additionally, bene&iarks should be eneourag~ by their provider, to select $upp~e~
           who are in the “Participating SuppIier Direetory.e

           We further belkve that physicians w&o od~      qgen      for benefiariea have a
           respomibil.ity to advise them on the uso ad be        maintEIUUE       of the quipmcn~
           We do not believe that usc of the Medicare ~@mok             to educate bcdkhk$        *mt
           theapecifkaervicu suppliers alwdd offerwuuld be cost-effective bccanse I- -
           1 perwmt of bendckriea use cxygen. ~,               wu will wnsider sending out a
           special mailing to Medicare bene~          or drafting a notice for providm to -d tO
           their Medicare patiem who need oqgen thq             ti~         listing the standards or
           sezvicc requirements for Medkam auppk
      10/25/04       13:43         B41O   966 S305                  HES OIG OAS HCFA                                Giloo5/oo6
                                                     -----



                             . .
. .                  --                                      —.   .. -                                            .—

..
                 Page 3

                 Qu?i!2d
                 HCFA could promotestandards     for -en                 therapy services which suppliers shouId
                 provide to Medicare benefiohies



                 We am withtheiutent ofthe recommcadatkm. mwcvcr,   as mated abow$ rather
                              new standards foraccreditati~
                 than promoting                          m
 baeve that the -g    supplier
                 atmuhmk should be used to improve cncygenservicas provided to beneficiary=


                        beliCvC
                 ID*tfOmwa  thti-~hm*timem@mU
                 readt    m a kavy a~ative               burdenforthe Medicare        program.
                                                                                            (Please        note   tbai
                 making differential payments to -                suppliers that arc wxzedhed would require a
         “       IEgishltiveehan~e.)



                 HCFA could establish a minimum level of se*                   requirements for supplie=

                 HCFA Ramonse

                 we do nut concur. setting miainmm requirements for purposes ~ -=di~tio%
                 cedficati~    or liccnsure is a process generally resewed for entities that furnish
                 direct patient care and not for suppliers of medical equipmen~ Again, as *X
                 befcma we believe that tbe eximing supplier standards should be nsed to improve
                 axygen scMccs provided to benefidaries.
                            NAMES

                              National Association   fOr

                            Medical   Equipment Services



                                                     September   30,   1994


                                                                          IG

HAND DELIVERY                                                             SAIG

The Honorable June Gibbs Brown                                            PDIG
Inspector General                                                        DIG-AS
Office of Inspector General                                              DIG-EI 2

Department of Health and Human Services                                  DIG-01

330 Independence Avenue, S.W.
Cohen Building                                                           liiC-CFM

Room 5250                                                                AIC-MP

Washington, D.C. 20201                                                   OGC/IG ~

           Re:	 Comments on Draft Report

                Oxygen Concentrator Services

                OEI-O3-91-O171O

Dear Ms. Brown:


          The National Association for Medical Equipment Services
(“NAMES”) appreciates very much the opportunity to provide

comments on t~e draft Department of Health and Human Services,

Office of Inspector General (“OIG”), inspection report entitled,

“Oxygen Concentrator Services. ” The report discusses the nature

and extent of services provided to Medicare beneficiaries who use

oxygen concentrators.


I.   General Comments


          NAMES concurs with the OIG’S conclusion that  the use of
oxygen concentrators in the home requires a high level of service

for oxygen-dependent individuals, and it endorses the OIG’S

recommendations for increased education and industry standards to

enhance the level of services. As the draft report recognizes,

NAMES has been active in promoting service standards to its

members for many years. NAMES, therefore, supports the OIG’S

recommendation to the Health Care Financing Administration

(“HCFAI’)to consider various strategies, including .supplier and

beneficiary education and establishing minimum supplier service

standards for the provision of oxygen concentrator services to

Medicare beneficiaries.


          As set forth below, however, NAMES believes that some of

the language of the draft report, and the underlying data used by

                                                                                     ,.,,
The Honorable June Gibbs Brown

September 30, 1994

Page 2





the OIG to develop its findings, misrepresent the current state of

oxygen supplier senices and care for oxygen patients.    In

particular, the draft report fails to provide a complete picture

of the scope and nature of accreditation within the home medical

equipment (“HME”) industry by the Joint Commission on

Accreditation of Healthcare Organizations (“JCAHO”) . While the

draft report acknowledges that its findings are based upon 1991

data, and that “concerned organizations have implemented improved

standards of care since then” (Report, p. 15) , NAMES strongly

believes that further caveats axe necessary to provide a complete

and accurate picture of the industry. During 1991, JCAHO

accreditation -- which mandates specific equipment service

requirements -- was still in its infancy. Few suppliers had been

accredited, simply because of the newness of the process, the

considerable cost, and JCAHO’S preliminary delays in scheduling

surveys of those suppliers which had sought accreditation.


          Today, 1,420 suppliers have been JCAHO accredited. Many

of these accreditations have taken place during the last three to

four years -- subsequent to the time of the study. Moreover, the

industry has seen some degree of consolidation during that time

period, increasing overall the percentage of accredited suppliers.

NAMES, of course, is understandably concerned with findings of the

draft report chat some of the Medicare beneficiaries surveyed

received ~ patient care or equipment monitoring services

whatsoever.  Nonetheless, NAMES believes it is critical to place

these findings in the proper historical context. NAMES urges that

the report specifically identify JCAHO accreditation as a

relatively new option for suppliers, and also note that the 1991

data sample occurred prior to the accreciitation movement within

the industry being fully underway.


II.   SPecifiC COmmentS on the Draft   Rf3DOrt


          Specific comments on the draft report by page number are

detailed below:


           Executive Summary, D. i, Report,      P.   1.


          The draft report states that patients using items such

as wheelchairs and hospital beds “require little monitoring. ”

NAMES believes this sentence to be both unnecessary and

inadvisable.  For example, severely disabled patients (especially

children) utilizing custom wheelchairs, and ventilator-dependent

patients and others whose health is severely compromised, require

substantial patient and equipmelltmonitoring. NAMES certainly

The Honorable June Gibbs Brown

September 30, 1994

Page 3





concurs that oxygen therapy patients require attention, but would

avoid making sweeping comparisons which may be of limited

applicability.


          Executive Summary, D. ii


          NAMES recognizes that an Executive Summary is designed
to provide a snapshot of a larger document.  At the same time,
NAMES is concerned that the specific findings which the OIG has
chosen to include in the Executive Summary paint the HME services
industry in the worst light possible. NAMES has worked very hard
to improve the image of the industry as a whole, and while there
is no desire to state the results of the study inaccurately, NAMES
is concerned that findings of the Executive Summary taken out of
context will undermine NAMES’ efforts to improve the industry
image as a whole. For example, the draft report states on p. ii
(and on page 10 of the report in substantially similar language)

that “Nearly half of all beneficiaries -- 47 percent -- do not

receive any patient care evaluations or assessments from

suppliers. “ Stated another way, over half of all beneficiaries ~

receive such services. Similarly, one other pertinent finding

from the report should be included in the Executive Summary:


          Ninety-two percent of Medicare beneficiaries

          received one or more equipment services and,

          of these, 71.5 percent of patients received

          services every 60 days, in accordance with

          NAMES’ standard, which advocates one equipment

          service every 60 days.


          Executive Summarv, Paqe ii


          NAMES does not believe it correct to state that the

Department of Veterans Affairs (“V.A”)has “endorsed” a set of

“recommended services. “ As discussed below, there are significant

limitations with trying to compare services provided to veterans

under VA contracts and those provided to Medicare beneficiaries,

in part because there is no uniform standard of required services

under VA contracts, nor any review to assess what services are

actually performed.


          Re~ort, P. 2


          The section entitled “Changes in Claims Processing

Environment” incorrectly states that these changes were based on

the Omnibus Budget Reconciliation Act of 1990 (“OBRA ‘90”) . In

The Honorable June Gibbs Brown

September 30, 1994

Page 4





fact, these changes were implemented as a result of
 an independent

HCFA initiative permitted by provisions of OBRA ’87
and

subsequently codified into statutory language.


          More importantly, the report alleqes that
 there have

been concerns about abusive practi&es by HM~ suppliers “since

Medicare’s inception.” The report enumerates carrier shopping,

multiple supplier billing numbers, telemarketing, and the like.

NAMES believes this introductory provision to be unduly negative

and irrelevant to the report itself. There is no need to include

this background in a discrete study of services provided for one

type of equipment. Again, NAMES is very concerned that gratuitous

comments like this will undermine NAMES’ efforts to improve the

quality of its members, and will serve to frustrate even further

legitimate, ethical suppliers who maintain honest business

practices.


          Re~ort, D. 3


          Previous Office of Ins~ector General   (OIG) Work

           NAMES is concerned about the appropriateness of

including
 findings from past OIG studies on home oxygen and oxygen

equipment
 in this report. As discussed below, qiven the serious

methodological-problems with several of these studies, and the

negative and gratuitous comments about their conclusions, NAMES

recommends that this section be deleted, particularly because it

does not provide any insight into the objectives, findings or

recommendations of this report.


          The OIG references two studies conducted in 1987 and
1991, respectively, in which the OIG attempted to compare oxygen
concentrator payment levels by Medicare and the VA. As NAMES has
commented previously, this is an I’apples to Orangesll Comparison,
because Medicare oxygen concentrator payments are not structured
the same way as VA payments. For example, most VA contracts have
separate payments for portable oxygen contents, while the Medicare
payment includes portable contents. Even the OIG’S own study

indicated that VA disbursements for oxygen contents may not be

retrievable, thus preventing a meaningful comparison to the

Medicare stationary fee which includes portable contents.

Further, while VA contracts typically enumerate certain service

requirements, the VA has no post-contract review, audit, or

similar survey process to determine whether these services are

actually provided. Thus , cost breakdowns -- comparing what is

actually provided by a Medicare supplier in a sample study with

The Honorable June Gibbs Brown

September 30, 1994

Page 5





what a VA contractor is required to provide -- are not necessarily
reliable. Finally, Medicare suppliers are required to incur
considerably more administrative                 costs,     such as monthly    Clairn.s
submission,       obtaining     from physicians         properly   completed
certificates       of medical      necessity,       and the like.      Thus , NAMES
believes     there     are serious     limitations        to the usefulness     of such   a
comparison,       and the reference          to these     studies  in this   report.

          The OIG also references a 1990 study entitled “National

Review of the Medical Necessity for Oxygen Concentrators, ” which

reported that one-third of the sampled beneficiaries in the study

“did not need oxygen or did not need oxygen to the extent billed. ”

NAMES questions how the OIG could have concluded that these

patients did not need oxygen, since medical necessity for oxygen

therapy is determined by objective standards for partial pressure

of oxygen (P02) in arterial blood or oxygen saturation levels by

ear or pulse oximetry. These had to have been documented in order

for Medicare payment to be made. NAMES also questions the 1990

report’s language with regard to patients not needing oxygen “to

the extent billed, ” since there is only one flat monthly fee that

may be billed to the Medicare program.


              Methodoloqv


          In ~he section entitled “Methodology,” the report
discusses the sample used to conduct this study. AS discussed
above, data drawn from 1991 is not representative of the industry
today. Accredited organizations represent an ever increasing
share of the HME industry. Further, it is unclear whether 183
suppliers selected for this study represent distinct corporate
entities, or whether individual branches of the same company are
counted as separate suppliers. This is significant because, to
the extent this represents individual corporate entities (rather
than branches of the same organization) , the data would be skewed
to representing smaller suppliers which may, in the past, not have
had the resources to seek JCAHO accreditation or to provide
enhanced levels of service. Accordingly, the size and resources
available to the suppliers in the study needs to be clarified.
Also, we understand that one of the suppliers in the sample was
sold during the period in question. As a result, the OIG was
evaluating u   paperwork, while patients were actually being
served by a w   supplier under new protocols. Thus , beneficiaries
may have actually been receiving’ considerably more services than
were documented by the predecessor supplier. Finally, we question
whether a 0.1 percent beneficiary sample size is statistically
significant . At the initial meetings on this study, the OIG



                                                                                              —
The Honorable June Gibbs Brown

September 30, 1994

Page 6





assured  NAMES that  the groups   chosen   were    statistically   valid.
That proof  should  be appended   to the   final     report.

           Report, D. 4


          Paragraph four on this page indicates that disposable

equipment drop-offs were not included in the classification of

equipment and patient monitoring services.  It is likely that

equipment monitoring or clinical visits were made in conjunction

with some disposable drop-offs, particularly where registered

therapists made these deliveries, even if these services were not

properly documented. This is because most suppliers attempt to

coordinate such deliveries with other services as a means of

achieving higher cost efficiency. Without JCAHO accreditation,

suppliers may have been less likely to record the services

performed in a service file or comparable patient record. Thus ,

the exclusion of these services (due to lack of documentation) may

have unduly skewed the results towards a finding of a lower amount

of supplier services.


           Re~ort, D. 5


          In paragraph four, the report does not indicate whether

the documentation requested and credentials of supplier staff were

found to be valid. In paragraph six, the full names of NAMES is

written incorrectly. The correct name of the association is the

National Association &   Medical Equipment Services.


            Report, D. 6


          The third full paragraph on this page discusses JC7U+0,

but fails to include the details noted above. Further, not onlY

has the number of suppliers who are accredited increased

substantially since 1991, but the number of beneficiaries

receivinq services from accredited suppliers has increased as

well . This is due in part to the increased number of accredited

suppliers, as well as other forces resulting in patients obtaining

services from accredited suppliers, such as consolidation within

the industry, competition and the increased emphasis on standards

by industry associations.


            Report, D. 7


           In the section entitled “Payers mandate service

 requirements for beneficiaries, “ the OIG discusses contracts which

 the VA and state Medicaid agencies enter with suppliers, and goes

The Honorable June Gibbs Brown

September 30, 1994

Page 7





on to use provisions of some of those contracts as “standards”

which have been “endorsed.” NAMES does not believe this to be an

accurate characterization.  Moreover, as discussed above, NAMES

urges that the report point out an inherent limitation in its

analysis: namely, that no survey was undertaken to determine

whether the requirements set forth in these contracts in fact were

being carried out, or whether these requirements achieve

efficiency and cost-effectiveness.  NAMES members provided OIG

representatives with numerous specific examples of instances in

which entities which were awarded VA contracts in fact provided no

services whatsoever, or provided only some services or different

services. NAMES believes that this type of “anecdotal

information” with respect to limitations in the report’s

methodology should be included to the extent that the draft report

itself includes “anecdotal information” with respect to individual

suppliers (see page 13) .


          ReDOrt, D.   8

          Table 1 purports to project the findings of the study to

all beneficiaries nationwide. Once again, as the sample does not

accurately represent the characteristics of the overall HME

supplier industry, it is not appropriate to project the findings

across the na$ional pool of beneficiaries. This table, as well as

Tables 3 and 5, should therefore be eliminated (or at a minimum,

only show the percentages and not the national beneficiary

estimates) .


          Report, DD. 9-12


          As discussed above, the findings as displayed in Graph

1, Table 2, Graph 2, and Table 4 may be significantly skewed by

the types of suppliers in the study and the data irregularities

cited earlier. The level of services provided by suppliers m the

1991 sample cannot necessarily be extrapolated to a “typical”

Medicare beneficiary.


          Report, D. 13


           The draft report includes several anecdotal comments

 about suppliers who did not provide services, but includes no

 comparable descriptions of the many suppliers who have gone out of

 their way -- for example, during Hurricane Andrew and the

 devastating floods in the Midwest and Georgia -- to service the+r

 patients. NAMES urges that “equal time” be given to a description

The Honorable June Gibbs Brown

September 30, 1994

Page 8





of suppliers providing patient and equipment monitoring services,

as well as those who did not.


          ReDort, w. 14


          The draft report states that “[suppliers providing

necessary services. . .are placed at a competitive disadvantage. ”

NAMES questions this statement. At least in some markets,

competitive forces will drive (and have clearly driven) some

suppliers not providing the necessary services out of business.

The respirator care industry is driven bv service.


          The report goes on to explain that HCFA has no recourse

against a company providing minimal or sporadic services because

it has not adopted service standards against which to measure

supplier practices. This is essentially correct. While HCFA has

adopted minimal standards relating to more generic requirements

for HME (e.q., responsibility for delivery of items to Med+care

beneficiaries, honoring warranties, maintaining and repalrlng

equipment, and the like) (42 C.F.R. s 424.57(c)), and,HCFAtomay

                                                             adhere

revoke a supplier’s Medicare supplier nufier for faillng
to these standards, HCFA, regrettably, has not yet adopted,  nor

endorsed accrediting bodies’ or other organizations’ standards,

for equipment ,and patient monitoring. As discussed beiow, NmES

endorses the recommendations made by the OIG in the final section

of the report to encourage higher levels of service.

           Report, D. 15


           At the top of the page, the draft states:


           We recognize that our data represents the

           state of care provided by suppliers to

           Medicare beneficiaries in 1991, and concerned

           organizations have implemented improved

           standards of care since then. (Emphasis

           added. )


           NAMES believes it appropriate to note specifically that

 numerous HME suppliers in fact have been accredited since that

 time.

           ReDort, D. 15


           The draft report provides several recommendations under

                                                         NAMES

 the rubric of “Educating Providing and Beneficiaries. “
The Honorable June Gibbs Brown

September 30, 1994

Page 9





urges that the report note that NAMES in fact has already

undertaken some of these efforts, i.e., “informing beneficiaries

of the kinds of services they should look for from their

suppliers. “ NAMES of course would be happy to work with the OIG

and HCFA to undertake further efforts, including, for example, a

section in HCFA’S Medicare Handbook.


          Re~ort, D. 16


          NAMES has been a longstanding advocate of promoting

standards for the provision of HME services, including the

requirement for supplies “to render the highest level of care

promptly and competently taking into account the health and safety

of the patient.” See Attachment E to the draft report. NAMES is

committed to working with the OIG and HCFA for development and

adoption of such standards.


          The OIG has recommended three different approaches for

setting minimum requirements:   (1) accreditation by a nationally

recognized organization, such as JCAHO or the Community Health

Accreditation Program (“CHAP”); (2) certification by suppliers

meeting accreditation requirements if, for financial or other

reasons, the supplier has not undergone an inspection process to

become officially accredited; or (3) state licensure.


          Because most states do not license HME suppliers, NAMES

does not believe this approach alone is an effective means tO

ensure minimum requirements. Additionally, because many suppliers

do not have the resources tobecome accredited by JCAHO or CHAP,

NAMES endorses the option of allowing suppliers either to become

accredited or to certify annually to their Durable Medical

Equipment Regional Carriers (“DMERCS”) that they meet one or more

of the proposed alternatives.


          NAMES believes the preferred approach is for HCFA, in

consultation with NAMES, to develop specific supplier standards

for the provision of equipment monitoring and patient care

services to add to the existing supplier standards. These

standards should encourage high quality beneficiary outcomes, as

well as efficiency and cost-effectiveness, in today ‘s marketplace.

Such standards should be reviewed periodically to ensure that they

reflect current techniques and technological developments.

Suppliers found to be out of compliance with these requirements

would then be subject to having their supplier number revoked or

other appropriate corrective action.

The Honorable June Gibbs Brown

September 30, 1994

Page 10





          Whatever option is adopted, NAMES strongly urges that
consideration be given to the recommendation of the Business
Roundtable’s newly published “white paper” Toward Smarter
Recmlation that “paperwork burdens caused by regulatory programs
should be expressly assessed and substantially reduced.” While
NAMES shares the OIG’S concerns that Medicare beneficiaries --
indeed, all patients -- receive regular, high quality services, it
urges caution in mandating any extensive new paperwork
requirements.

III.   Conclusion


          NAMES supports the OIG’S conclusion that the provision

of home oxygen concentrator services requires an intensive service

component, and appreciates the OIG’S consideration of this

important issue. At the same time, NAMES questions some of the

findings in this study, based on the age of the data and the

supplier sample. NAMES believes the industry has moved

consistently and aggressively to becoming more service oriented,

as evidenced in the December 1993 Report entitled “NAMES Consensus

Conference on Home Medical Equipment Services. ” This is reflected

by the increasing number of suppliers who have obtained JCAHO and

CHAP accreditation.   NAMES requests that the draft report be

revised to ref,lect the comments provided herein, including in

particular avoiding references to the negative image of the HME

industry which NAMES has fought so hard to dispel.


          Should you or your staff have any questions on these

comments, we would be happy to discuss them with you at your

earliest convenience.


                                   Respectfully submitted,

                                               ,/--
                                    -\
                                   (A’’”+      2
                                               “-’
                                   Corrine Parver

                                   President

Ml:!.?
HEALTH INDUSTRY
                                                       Alexandria,   VA 22314-2875



                                                                       IG
                                                                                        225 Reinekers Lane, Suite 650
                                                                                     703-549-4432  FAX 703-549-6495



       DIS1”RIBUTORS
       ASSOCIATION                                                     SAIG


 BY HAND DELlVERY                                                     DIG-As
                                                                      DIG-E1             I/
 Se@emberQO,     1994                                                 DIG-01
                                                                     AIGCMA _
 June Gibbs Brown, Inspector General                                 AIGMP
 200 Independence Avenue, SW
 Department of Health and Human Semites                              OGC/Ic
                                                                     EXSEC   ?
 Washington, DC 20201
                                                                     DATESENT q               0
 Dear Inspector Brown:                                                       T


 This letter contains our comments on the Office of InspectorGeneral’s dralt report on Oxygen

 ConcentratorServices (July 19$4, OEI-O3-9I-O171O). Thank you for the opportunityto

 comment, and we look forward to our continued dialogue on this report and other issues that

 impact HIDA members.


 L        Introduction


 HIDA is the national trade association of health and medical productdistributionfirms.

 Created in 1902 by a group of medical productsbusiness people, HIDA now represents more

 than 1000 wholesale and retail distributorswith approximately2000 locations. HIDA members

 includea broad range of health and medical product distributors— billiondollar multi-location

 national companies and neighborhoodstores, chains, and independents. HIDA members

 providevalue-added distributionservices to virtuallyevery hospital, physician’soffice, nursing

 home, clinic, and other health care site in the country, and to a growing number of home care

 patients. We are writingon behalf of our members who provide Medicare Part B home oxygen

 sewices to Medicare beneficiaries pursuant to a physician prescription.


 Il.     General Comments


 HIDA applauds the IG’s efforts to study the level of services supplierscurrentlyprovide to

 Medicare beneficiaries receiving home oxygen therapy. We agree W-ththe IG’s findingsthat

 there is a tremendous amount of inconsistencyamong suppliersin terms of the level of

 services they provide to their home oxygen customers. We therefore stronglysupportthe IG’s

 recommendationto establish supplier standards. We believe that defining standards of

 semice will result in suppliers providingthe highest level of service and care to Medicare

 beneficiaries. We also stronglysupport extending the standards to non-participatingsuppliers

 in additionto those who take Medicare assignment. The National Supplier Clearinghouse,

 which receives informationabout all sup~iiers’sewices throughthe Form HCFA-192, is an

 ideal mechanism for establishingsetvice level requirementsfor suppliers. Attached are

 Consensus Conference recommendationswe developed in 1992 to achieve this objective.


 While we are very pleased at the progressive nature of the IG’s recommendationto establish

 separate payment amounts based on service levels, we are unable to fully commit HIDA

supportto this recommendation untilfurtherpolicyanalysis, and importantly,the administration
(e.g. DMERC) implicationsare explored. The policyanalysis needs to consider patient
outcomesdriven levels of service rather than only supplier company capability. While
traditionallycompetitive market forces have caused high service levels balanced by regulatory
driven fee schedules, the emerging integrated managed care markets are changing these
incentives and restrahts. Thus, any linkingof reimbursementto service levels needs to
consider the emerging operatingenvironmentfor home health delivery.

[11.   Specific Comments

Althoughwe are generally pIeased with the IG’s findingsand recommendations,we have
several specific commentswhich we believe would improve the report.

On page 4, the last paragraph’sthirdsentence states that the IG consultedwith a “registered
nurse with an extensive backgroundin pulmonarycare”for assistance with the report’s
analyses. We question whether your registered nurse with a backgroundin pulmonarycare
has the necessary qualificationsor experience in home care to evaluate home oxygen
seivices. We believe it would have been more appropriateto have consulted with a health
care professional with specifichome care expertise for a more accurate evaluation. The
operating experience in an institutionalsetting is not the same as experience in the home and
is therefore not intuitivelytransferable.

on page 5, the sixth paragraph, we questionwhy the organizationsthe IG met with are not
listed alphabetically. We also request that HIDA’s acronym- HIDA - please be added after
the spelling out of the Health IndustryDistributorsAssociationas is done with other
organizations mentioned in the list.

On page 6, the third paragraph describes the national accreditingbodies which establish
service standards for home oxygen care. The last two sentences in the paragraph describe
the number of supplierswho have maintained JCAHO accreditationand the number planning
to seek accreditation in the future. We believe more useful informationwould be the number
of beneficiaries who were served by those supplierswho maintained accreditation.

On page 7, the report neglects to mention HIDA’s recommendationsto the IG about supplier
service standards. HIDA has recommended different levels of standards depending upon the
type of sewices the supplierprovides,such as basic standardsfor traditional DME, higher
standards for oxygen (e.g., respiratorycare), and even more stringentstandards for higher
care patients on ventilatorsor those receiving home infusiontherapy. HIDA continues to fully
supportthese standards and would appreciate mention as such in the report.

On page 12, the repoti describes the number of beneficiarieswhose supplier failed to meet
service standards set by the VA and AARC. The section shouldalso evaluate which suppliers
whkh are JCAHO accredited failed to meet JCAHO setvice standards.

On page 16, “PromotingStandards,’ the repofi recommends HCFA promotingstandards
endorsed by several organizations,includingNAMES. To identifystandards, we believe a
consensus process such as JCAHO is preferable to a narrower industrydevelopment such as
NAMES.




                                              2

On page 16, “SettingMinimum Requirements,- the report describes several mechanisms to
establish a minimum level of service requirementsfor suppliers. HIDA recommends that the IG
considerthe National Supplier Clearinghouse(NSQ as a mechanism through which to
establish service level requirementsfor suppliers. All suppliersmust complete a Fom HCFA-
192 and submit it to the NSC. The form couldincludequestions about services provided to
establish sewice level requirementsfor that supplier. Please see our attached 1991
Consensus Conference recommendationsfor more details on supplier requirements.

IV. Conclusion

HIDA supportsmany of the findingsand recommendationsin ttis report. Unlike other items of
durable medical equipment, home oxygen therapy is life-sustainingand therefore requires
regular equipment and patient monitoringservices. Unfortunately,current Medicare policies
have not recognized that services shouldbe provided,which has resulted in variation among
service levels for beneficiaries.

Home care dealers would benefit from supplierservice standards for oxygen therapy. Patients
who depend on home oxygen therapy to functionwould benefit from a more consistent level of
service rather than their random selectionof a supplier. HIDA supports having Medicare
educate providers and beneficiaries about the kinds of services which should be provided to
home oxygen patients. HIDA suppofis promotingindustryservice standards and recommends
that the NSC be used as a mechanismfor evaluatingwhich suppliers (depending on their level
of care patients) should be requiredto meet which standards. Finally, HIDA supportsrequiring
suppliersto meet accreditation,certification or licensing requirements.

Thank you for the opportunityto comment. Please contact me or Cara Bachenheimer, HIDA’s
directorof government relations,for further information.

Sincerely,


  . $T
/’dK
 . Wayn
CEO a

Attachment
              ay
             reside



cc               Penny Thompson, OIG
                 HCMG, HCGRTF
                 Cara Bachenheimer
                 Craig Jeffries




                                              3

                               EXECUTIVE      SUMh4ARY

                              1991 HIDA Claim Efficiency
                                 Consensus Conference
                                   (May 13-14, 1991)
                                                                     !

OVERVIEWO

      As thenation, and Congressional and Administration leaders focus on the costs of
the health care delivery system and particularlythe growth of Medicare expenditures, it is
important to look for areas of inefficiency. One particularly inefficient area is the
administration of third party claims by Medicae carriers, home medical equipment
setice and long term care suppliers, and beneficiaries.

    The 1989 HIDA Home Care Financial Sumey reported that home medical
equipment(llME) industry       were increasin#y
                       resources                         tiompatient
                                             beingdiverted         care

       to the administration

services                   of thirdpaw clams. Moreover,the hl~h COS~of

            thirdpartyclaimscouldnotbe reducedwithouttheactive

administering                                                and focused

       and supportoftheHealthcareFinancing
attention                                              (HCFA). Therefore

                                          Administration

[he 1990 HIDA Claim Efficiency ConsensusConferenceideniifted

                                                           key areasfor

improvement.


    The 1991 Conferencerecognizedtheimportantstridescongressand HCFA made

toaddressthe 1990recommendations,addressedfurther              issues

                                                  implementation    forold

issues,          certain
     and identified               Importantly,
                        new issues.                    introduced

                                             legislation        inthe102nd

                  theimplementation

Congresswillfurther                 ofmany of the 1991HIDA ClaimEfficien~
ConsensusConferencerecommendations.


P~TRPOSE


      HIDA initiated the Claim Efficiency Consensus Conference to identify problem
areas in claim processing and to recommend specific changes that will allow HME and
long term care suppliers to operate more efficiently and reduce their costs of third party
administration. The Consensus Conference recommendations also recognize benefits to
HCFA and Medicare carriers through greater system standardization, accountability and
enhanced communication.

      Finally and most important, the Consensus Conference recommendations highlight
eme~ging risks to Medicare beneficiaries of not receiving needed HME services due to
barriers or inconsistent interpretations   created by the probiems in third party
administration.

      The 1991 HIDA Claim Efficiency Consensus Conference recommendations are
attached and reflect the discussion of the conference participants, recorded and drafted
by workgroup leaders. The recommendations have been reviewed by a broad sweep of the
HME services and long term care supply industry, including participants in the 1991
conference, state association leaders and other industry representatives, and HCFA and
General Accounting Office officials. Final policy recommendations emer~ed from this
review and consensus process, and suggest cooperative action involving Medicare carriers,
HCF& and industry. Some recommendations may be implemented administratively. In
some cases recommendations may require Congressional consideration and legislative
action.
MAIOR RECOMMENDATIONS:

Sur)r)lier Number       Qualification   and Review

       The HIDA Claim Efficiency Consensus Conference recommends that Medicare
require SU pliers (through an application process) to meet national standard criteria for
issuance o F supplier numbers, and periodically renew the supplier number. The standard
criteria are intended to establish basic business standards that suppliers must meet (e.g.,
maintain inventory; FDA OS~          DOT compliance) and provide information suppliers
would disclose to allow the carrier to monitor the supplier for potential abusive activity
(e.g. telemarketing   physician self-referraI). The renewal process would allow HCFA
carriers and the Inspector General to more actively monitor changes in business practices.


Beneficial     Verification Svstem

       The HIDA Claim Efficiency Consensus Conference recommends a point of service
system to allow a beneficiary to veri& his or her eligibility for Medicare services. his
verification would include non-medical necessity elements, e.g., Part B eligibility, HIC
number, address, MSP types. Such a system would be available to qualified suppliers and
would be s;w~!~- to the verification svstem currently in use by.- hospitals under Part A- .




ENIC Standardization          lm~lementation

     HCFA developed a standardized electronic media claim (EMC) format in part
based on the 1990 HIDA Claim Efilciency Consensus Conference recommendations. The
1991 Conference recommendations address implementation issues to support I-lCFA
carrierand suppliergoals in achievingan EMC capabili~,            includingsyst~rn~

standardization  adequatecarrier supportsystems,  crossover clams processing, que~

capability, standardizationof EOMB messages, code and medicalpollcles­         me
recommendations   alsoaddressproblemsofaccess  toEMC bysmallvolumesuppliers.



h’ational    Standard     Coverage and Utilization

    The HIDA Claim Efficiency Consensus Conference recommends the establishment
ofnational
         standardMedicarecoverage  criteria
                                          and utilization
                                                        guidelines

                                                                 tocurbabusive
carrier

     shopping.



Carrier     Consolidation

       The HIDA Claim Efficiency Consensus Conference reconfirms the 1990
 recommendation to consolidate the number of carriers to achieve better carrier
 management and carrier claim processing expertise on HME and long term care supply
 claims.


 Carrier Jurisdiction Rules

       The I-IIDA Claim Efficiency Consensus Conference recommends that claims must
 be submitted to the carrier with jurisdiction where the patient resides except that HCFA
 may allow carriers to exempt suppliers that semice patients residing within 60 miles of the
 carrier area, “snowbird” beneficiaries, and for other reasons with no potential for abuse.

                                             I-iIDA Home Care
                                   ~    225 Reinekers Lane, Suite 650
                                               Ala, VA 22314
                                                (703] 549-4432
                       HIDA Claim      Efficiency     Consensus    Conference
                          Conference    tiaders:     Craig Jeffnes,    HIDA
                                   Cullcn Murphy, Wasserotts
                                   Cara Bachenheimer, HIDA
                                         May    13-14,   1991



WorkwouD   To~ics


    insurance    Verification

    Leaden:    ha        Thomas-Payne,             Medical      Reimbursement   Systems;   Jo~a
    Augst-Johnso~       Redline.

    Participants: Stephaniel%omto~ ADMEA,                       Dawn Wrigh~ Stein Medical;Tins
    Morrelh,  HCF~ Melanie Combs,HCFA



    Carrier Performance;          hfedicare Carrier Reform: Regional Carriers;        Clean Claim
    Reforms, TAG.

    Leuders.- Lynn Snyder, Epstei~ Becker& Green;Tlm Redmor+ NARD

    Participants: Al Schnupp,GAO; Ann Berrim~ Ober, Kaler& Grimes;Susan
    Kladiv~GAO; Geraldine   Wnuk, Buffalo      Supply.

                                        Hospital



     EMC/Paper       Processing

     Leaders:   Maureen Hanrq        Abbey Home Healthcare;
                                                         Qnthia Bendey,Homedco


     Participants: Max Buffington,
                                HCFA; Jim Kral,HCFA; CarolynI-Iarrk,

                                                                  ~lasIock;
     Gordon Hilton,
 Abbey Home Hea]thcare.




     Supplier hTumber and Carrier Shopping

     Leadem: Rita Hill, American Home Patient Centers; Dan MoskowiK ASCO.

     Ptiicipants:    JaneHerlocker,
                                 HCFA; Mike DeCarlo,

                                                   NAMES; CaraBachenheimer,
     HID.4.





                                                                                           —
KSDA ~NSENSUS          CO~m
May 13-14,1991

TOPIC    SUPPLIER      VERIFICATION


ISSUE


In the r&dst of ever evolving media reports portraying negative HNfE sefi=,        brought on
in pan by the etistence of no bam”ers to entry to becoming an HME suppbe r, the I-ME
Industry clearly reco-gnizes the need to’ move in the direction of licensure and wrtification
to differentiate qualiiy and to consider other barriers to entry that establish basic business
criteria.

in’thecurrentenvironment,suppLiernumbers areissuedwithlittle

                                                           to no scrutiyof the

applicant’s                          Addi~ionally,

          basicbusinessqualifications.          I+= companies usuallyare Rot

      tostate
subject               laws,quality
              iicensurt          assurances!andards
                                                  orothersimilarcriteria

                                                                       typically

rtquiredof hta![hor:atizations

                             and professionals.





TRe following    iecomnendations       resulting from   this conference  focus on a iron:     e:, d
 screening program to es:ablish     baseline business   s:zndzrds as prerequisites to en:r<   Q;<
 involvement in the Sfedicare    program.




 RECDMkZENDA’T’’f ON:


 Recommended soIutions
                    createdfrom a consensus

                                          of[heworkgroupincludethefollo~in~:


 L      Stated criteria which must be met to both become and remain q-d              as an I-Lw
        supplier.

         The criteria, along Mti a brief explanation of how the info~ation      ~   be uSc~~
         should be available to all suppLier candidates prior to completion of an application
         for enroUmcnt in the program, perhaps in the form of a Supplier Qualification
         packet. The supplier will be asked to attest to the information in the application and
         compliance with all stated criteria by completion of the enrollmcntirenelval
         application.
HIDA CONSENSUS              CONFEREN=
May 13-14, 1991
Page 2



       Suggestedcriteria
                      forenrollment

                                  areasfollows:


       A	      No prior exclusions ‘horn the Medicare/Nfedicaid                          program as a result of civiI
               or criminal     actions.

       B.	     Compliancewith aI.I        stateand federallicensure
                                 applicable                       and regulatory

               agencies.

       c.      The suppliermust maintaina physical

                                                 facihy,                                    With both      inventory    and
               personnel

                       on site.

       D.       Proof of adequateproducdprofessiona]
                                                 habiliry
                                                       insurance.

       E.       1~’ri[[tn
                      r.~!ntenance
                                and seniceprocedures
                                                   and protocols.


       F.       \t”ritten   yrsonnel/staffing          standards       and protocols.

        G.      );’ritten    procedures        and protocols        regarding      record     tmanagement-

        H.      Jf’ritten    szfery      and    ir.fection   control       protocols.       for both       ernplo:ces   ?fic
                patients.



 IL	    Re@d          disclosure of information              that    will tit        b      carrier    in mcmitofig      for
        potentially    abusive pmctia~

        Suggested     information        disclosure     includes:

                 �          Physician,    hospital,     nursing     home     owmership        interests.

                 �          Type of producu           and sewices       offered.

                 �          Sales/Marketing         inforrnation/practims.

                  �         Pricing practices/poliq.
HIDA CONSENSUS CONFERENCE
May 13-14,1991
Page 3



IIL	   A rigorous appli~tion       to be dm.inistered    uniformly         for both    ncw     supplier
       applications a.s well as on an established renewal cycle.

       Recommended      content   for development   of a standardized       supplier   application      is
       included as Attachment     A

       This application should be administered uniformly     for all HME       companies      tha~ w+sh
       to become or remain a Medicare supplier.

       The Workgroup recommends         that each approved supplier be required to reapply on
       a cyclicalbasis IO remain qualified for participation in the program.       A minimum r~o
       vear renewal term is recommended        for all suppliers, with the carrier maintaining
                                                                                            ., lh.e
       rl~~iLto r~auir~ mare frequent      ren~wa]s  from Se!tCI sup Dliers based on ~ h]g,n !C<.el
       oi abusive petiarrnance   or alleged problems. a: Z[ the re~uest of HCFA or the OIG.

       Signed at:esta[:cn as to the accuracy and thoroughness of the submitted in formzt:on.
       as well as sier,ed ameement       with stated critetia and conditions for appro~al.   IS
       xcarnmended       as an adjunct to the ,Applica:iori.



W.	    Required vefication     procedures to be performed      routinely     and u.n.i.fo-rrniy prior   to
       approvzd of both initial and renewal applicauons-

        Equally as imponant     as expanding the deiyee of information     requued  to becornt
        qualified as an I-HIvE supplier, verification    of the submitted    data is absolutely
        imperative. Therefore,   it is recommended  that minimum verification proc-cdures and
        protocols be established and compliance monitored to ensure validiry of the screening
        process. This proc-ess could be administered by each carrier, by a national contractor
        or by HCFA

        IdealIy, a system of cross referencing   information among all program      earners  is
        recommended.      A program    like LJPIN “could be used for administration     of Ihe
        application process on a national basis.

        Recommended      minimum verification procedures are also outlined in Attachment  A
        These procedures    are not intended to be all inclusive and arerecognized  (orequire

                reviewinsome cases.

        subjective

HIDA CO~                CONFERENCE

May 1314,   lm
Page 4




       It is recommended that consideration be given to mandatory on-site imqxction based
       on the level of negative or questionable responses which cannot be ve fied otherwise,
       or based on randorniy selected applications.

       Per the attestation   section of the application,   it is recommended  that the applicant
       attest to their understanding   that the can-ier (or other approval organization) has the
       right to require or perform on-site inspection at their discretion.




The above recommended         barriers to entry represent a first step in the direction of puri$ing
the HME marketplace       -- both in terms of legitimizing competition     and competitors,      as well
as stabilizing the reimbursement      en~ironment   adverselv impacted bv. svswm
                                                                             .       abuse. Coupled
perhaps with additional standards         of quality and accreditation    oppofiunities,      the H>lE
Industry will become postured among its counterparts          within ~he healthcare      system, to pay
a recognized si-gtif!carit role in the future of healthcare delivery in this count~.
                                                          :NO1.LV3CYl   (lNV~WVt’J

   ——.                       .. ....... .   .. . ... ..
LN3WVd03/   NOl.Lv31dll]ll         A
suI’1’LIEK VERIFICATION
I IIDA CONSENSUS    CONFERENCE
May 13-14, 1~1

R[;@MMENDED               suppL]~R       APPLl~TJON            CO W1’l;Nl’
AND      VERIFICATION         PROCEDURES

                                                                                                  V[;RIFICATION       /COhi MENT
                                                                             ................... ......... .

oTIIER        CARRIERS      BILLED:

 1.	     LA any o(hcr Mcdicarc carriers which arc                            Inquire (II C:ICII Iislcd ~rncr status of suppiicr performance      and
         currently billed [or any SCMCC.. (include mm                        cl;till! Iypc I(I dc(crmincc ornpliancc with carricr jurisdiction   rul~$.
         o[arricr,  supplier number and primary i(cms
         for which (hey arc hilled).




TYPES        OF PRODUCX’WSERvlc=:

 1.	     Which of the following produc[.tiscticcx                            Cross rcfcrcncc cxch inrlicxtd        prcxlucllscmicc   [o:
         do you provide:
                                                                             - subnlillcd    hc-Jllh pro[cxional   liccnsurc information.
            Durable Medical Equipmcnl
         — Oaygcn                                                            - c(mlpliancc    will} sppli~~blc stale rcgulatoq’ rquirmcnLs,
         —	
         — Vcntilalors                                                         (e.g. [’DA).
         _    Apnea Monitoring
              PEN
         —o&P
         —
2.	      A(c Mcdicarc    Ilems ordered   by Ihc bcncficinry                  If rmptmsc i(idiCRIC$ bcncflciary 4Jlrcclcd order, mcxdlor
         prior 10 lhc prescribing physician’s prcscrip[iml’t                 for Irn)ssihlc lclcnmrkcling abuses.

         If so, arc Ihcsc incxpcnsivc rcluil ilcms
         bought across the txn.mlcr?
sljl’1’i,llil{ VL!I{II;I(X’I’ION
111I)A CONSENSUS CONF13RI?NCE
May 13-14, 1~1

I{i.XOMMENDED SUPPLIER APPLICATION                        CO N1’I;NI’
AND   VERIFICATION PROCEDURES

                                                                                               v[IRIFIMTION    /COMM~~
                                                                        —... .... .. .. .. .. ... .. ..

SALES/       MARK~ING:


 1.   Arc ph@ians, nurm, IhcrapisLs or                                  Dcfcrminc    il na(urc O( rnarkcling   slralcgy needs [o be
      bcncficiancs used for markcling purpose..?                        m(milorml    for possible abuse.
      If yes, describe.

 2.   If Ihcse individuals provide markcling                            1[ rc.slxmsc is Iwrccrilagc   hmis, warranls   a(ldiliorml invcsligalion
      scMca under coniract, how arc lbcy                                01](1 Ill(l(lil(ltllll:
      compensated:

           % of Revenue gcncraid
         — % of Collections on Rcvcnuc gcncrntcd
         — Flat Fcc (NoI rciatcd to referrals)
         — Olhcr (pieasc dwcribc)
         —

 3.   Do you conduct outgoing solicitation to :                         1( bcncfi~iilri~$, review wriltcn guide [or inappropriate ICIC.
                                                                        rnarkcling pr:lclica (Waiver ofconinsurancc,
           Bcncficiark �                                                n(ln. mcdic:ll nccwsily, clc. )
         ~ Physicians
         — Other Referral Sources

         * If yes, please submil a copy of your wril[cn
          soliciladon guide.
S{ JI’I’LIER    VIWII:l      CA”~lON
I{ IDA    cONSENSUS           CONFERENCE
May 13-14, 1991

~p~MMENDED                  SUPPLIER       APPLICATJON   CON~l!Nl”
AND      VERIFl~TION             PROCEDURES

                                                                                                    VERIFIGITION     /CO Mhi E~
                                                                     .. . . . . . . . .. .- . .. ...-—




4.	      For c-ach salm     rcprc..cnlalivc cmployc-d,               (M;ty    IN’ IIMJ llurdcnsonlc         10 monilor IllIS)
         please indicalc:

         - Name and address.
         - Tclcphonc number where can !hcy can bc
           rcachcd.
         - As.signed branch.
         . States served.                                            .Scc    t)cll)w.

5,	      Arc orders roccived and proccsscd oulsidc O(                If ym, review claim submission practic~ wilh mulli@c Urncm                         10
         Ibis carrier jurisdiction?                                  dc(crminc compliance wi[h carriem jurisdiction rules.


6,	      Arc sales made through calalogs to
                                                                        .                    .
         bcncficiarics outside Ibis carrier
         jurisdiction?

         a. Do you dcllver lhc.sc products from this
           supplier address?

         b. Do you subumtracl with another supplier                  1( yrx, w;lrr:lnls additional           Invdga(lcm    10 dclcrmlnc   valldily of
           fur delivery of these products?                           su[lldicr l)illil)~.
SUI’I’I.    I[llL    VERII;IWI”      ION

II IDA CONSENSUS                  CONFERENCE

Msy    13-14, 1~]


RKOMMENDED                    SUPPLIER APPLICATION         CO NTl~N’1”
AND        VERIFICATION             PROCEDURES


                                                                         ...----- ..... ...... ... ....——


PATllZ~             SET’-UP/DELlVERY

 1.	       Indicate information given to the bcnctlciary                 Ivlwsl h:Ivc WrIllCII poiiciti.
           prior to or al Ihc lime o{ delivery:

              Teaching and (raining malcrials.
           — COntracls(adng [crms of rcn(al or
           —	 purchase.
              Patient Bill of Riglus.
           — Emcrgcnq contact proccdurm.
           — Olhcr (please specify).
           —

 2.        How arc benclkiary signatures oblaind:

              in person
           —  over the phone                                             W;irr~n{s    [urthcr    invcs(igatbrr      if over [he phone.
           — by mail
           —	
           — olhcr (please explain)

 3,        How are products dclivcrcd 10 bencficiarics:                  Usc inf[)rnl;lliwl     to idcnlify      p(crrtial   earner jurisdiction
                                                                         isslJc.$.
                commercial or U.S. Poslal scMcc
           ~    company delivered.
           _    pickd Up by bencficia~.

 4,	       Who u)mplelcs mcdicai mxxxsity Information
           on the Cxrtificatc of Mtxlical Nccmsity:

                physician or agcnl.                                      The corrccl rc.sponsc.
           �    supplier.                                                Supplier II(M acccpInblc,          (Refine    based on currcrrl earner    instructions)
           —    o!hcr (picasc cxpiain),                                  Suspccl . il}vc.sliga[c,


 5.	       Hmv long arc palienlJlransaclion spczific
           r.locumcnlsrclaincd?
sIJPPLIIIR  VERIFICATION
II IDA CX)NSENSUS CONFERENCE
MJy   13-14, 1~1

RECOMMENDED SUPPLIER APPLICATION                        CX)W”I{NI’
AND VERIFICATION PROCEDURIH

                                                                                         vI; RI FImTION     /COMMENT
                                                                     ......-—..-.............-.

PRICING:



       Arc Mcdicarc and non-Mcdicarc palicnL$                        1[ rrspwlsc IS II{), invcsligatc 10 ensure govcrnmcn[ is not charged
       charged [hc same for idcnticd scrviccs.                       more.
       If no, explain

       Do you inform the bcncllciary of his/her                      If no, indi(-:llc.s nofl compliance,
       responsibility for coinsurance?

       a, Is this communication wrillcn or verbal?

       b. When dots Ibis communication    occur?



       Do you have a Wril[en proccdurc 10 review                     Require wrillcn    proccdurc,
       the bcncficiarirx$desire 10 waive coinsurance?

       Pcrcznlagc ofcoinsurancc waived over lhc pwd                  Exccssivc pcrccnlagc     warrants invcs(igalion.
       IWCIVCmonths (for renewal applications).

       Do yuu have a syslem in place 10 ndjusl                       1[ nl)l, C:irmt)[ rcccivclmainlain suppllcr number.
       billed ulillzallon to actual ulilizz[ion
       for disposable supplies?
sl)l’1’1,1~~1    VBRIFICATION
III1)A CONSENSUS CONFERENCE
May   13-14,    1~]

R~IM~ENDED               SUPPL[ER     ~pL[mT10t4           coffl’~~1”
AND    VERIFICATION           PROCEDURES

                                                                                               vliRIFl(%TION                  /COMME~
                                                                        .-- ... .......... ..... .. ...


OWNERSHIP:



 1.    ~        0( Business

           Corporation
        — Parmcrshifr
        —	
        — SoIc Propnclorship

 2.    Ifincorporaled, DaIc and SIatc of Incorporalitm                  Verify wi{h ;IfJl~lIc:IIJlc stn[c.


3.     Federal Tax Idcnliflca[ion Number                                Vclify willl          ;[l]~dic:lblc    govcrnmcn[     agcocy,


4,     Hosphal based or afliliatcd?

5,     Was company purchased? If so:

       a.    Were the rweivables purchased.
       b.    Name of the former owrrcr(s).                              Cross rcfcrcncc 10 OIG or @her appkablc databases,
       c.    Former name of company and addr=.
       d,	   Indica{c c8rricrs billed with corresponding                Ir)quirc M I(I supplier Pcrformandalanding.
             fwovidcr numbcmo

6      Please provide a complclc lisl of company                        Cr(tss      rc(crc[~ccwi(h            applicable    gcrwmmcrrl   agcocics, o(hcr
       OITrccm, with corresponding .Social!kzuri!y                      c;lrlicrs     ;IIId    OIC~,

       Numbcm for each.
     SUI’I’I.I13R VERIFICATION
     III13A CONSENSUS      CONFERENCE
     May   13-14, 19’$J1

     RIIcOMMENDED SUPPLIER APPLICATION                         CONTII~l”
     ANU VERIFICATION PROCEDURES

                                                                                                  VITRIFICATION /           COMMENT
                                                                           .. ....... ... ...   .... ... . ..-———


     7.	   LA lhc names of each owner, partner or
           olhcr inrlivjclualwho has a financial irrlcrcsl
           in Ihc company.

           a,   SIalc the exact nalurc of Ihc irrlcrc-slcoch
                individual holds (e.g. stock, loan),

           h.	 Idcnlify any oflhcsc individuals who is
               or has been a provider of Mcdiurc
                Scticcs.

             - Indicalc exact name and address of Ihc                      Cross rcfcrcncc 10 OIG              or olhcr applicatrlc source.
               provid~r.

             - Indicate the provider numbers under which
               each operates or has opcralcd.

     8,    Have any of the following individuals been
           the subject of any civil or criminal action
           with rcspxt 10 scmices billed 10 Mrdicarc,
           Medicaid or’any othcf lnsurancc company?

           —    any of UIc Ofllc.cm tis{cd above?
                any oflhc Owners, partners or olhcr
           —.
                individuals having a financial irr[crcst
                Iistcxl above?
II              any rclalhwa of the Chyncrs, parlncrs or
           ‘olhcr     individuals having a financial
               inlcrc5t’listal-above?
           _ any cmployccs of the comfmny?
           _ any contract thcrapisls, nums or
               pharmacists?

           I(ycs, provklc cxplanalionl                                     W;lrr;lnls invcslign(ion.
sol’1’[.11~1<      V~Rli71CA”l’10N
1 I IDA
      ~NSENSUS                 CQNI:ENENCE
May 13-14, 191

RIKOMMENDED                 SUPPLIER APPLICXTION              CONT1lN1”
AND       VERIFJ~TION            PROCEDURES

                                                                                                 vERIFICATION/COMMENT
                                                                          ...---- . .-----.. ------—



(),       l[lhc company is rclalc(l (bytmmmon ownership                   Crms rcrcrcncc 10 OIG         or o[hcr applicable da[nbascs used 10
          {lr managcmcnl) 10 any other organ i7~(ior\ (hi)!               ltl~ulilllr In)(cnli:ll ahusivc rc[crrals,

          is also a frruvidcr O( Mcdicarc scrviccis,                      (bl I151~l($lilt(” “(~II IImr In owmcrship  (]r m3nagcrrlcnl”).


          identify:

          n.   cxacl name and addrms 0( rclwccl
               organi7,alion.

          b,	 relationship 10 lhc company and [trc
               nature of Medicare scrvicm Ihey provide.

          c.	 name of   the Medicare contractors that
               arc billed and the provider numbers     used
               for [his purpsc.

10.�      USI name, specialty and liccnsc number                          Cross rcfcrcncc to OIG        or other appl.icablc dalab-.

          of any physician, [hcrapisl or other                            Monitor    for po(cnlial abusive referrals.

          Ikcnscd practitioner who is an cmploycc,
          o[kcr, or who has an owrrcrship interest                        Sh:irc inf[lrn~a[iorl ob[aincd wilh OIG          as applicable.
          in Ihc company, S[a[c cxacl function.

Il.	      M name, spcdahy and Iiccnsc number                              c’ross rcfcrcnu!     10 OIG   or cxhcr appkablc        da[abiucs.
          of any physician, lherapist or other                            M(mil(jr   (I)r polcnlinl   abuslvc referrals.
          Iiccnscd praclilioncr who is used on ii
          consultingkxmtract    basis. Spify   cxacl                      Sh;tru in(or(ll;i[l(m   ob[nincd wilt] OIG       M appkablc.
          [unclion,
     SUf’1’Ll13R    VERIFICATION

     IIIDA    CONSENSUS        CONFERENCE

     May 13-14, !W1


     RECOMMENDED             SUPPLIER APPLICATION          CONTENT’
     AND Vf3RlFf~T10N           PROCEDURES

                                                                                             vI; I{ IFIcATION        /COlV4MENT
                                                                      -. —.- .... . .. .. . ... .. . ..—.


     {) PI?l{ATIONS:

      1.     Is your company accrcdilcd by:                           [( yes, (I IllI}WIII~   (~uu.$tions warrfint   Iil[lc   review.


                JCAi-{O?
             “  CliAf’?
             ‘“
             —  01hcr7  (please specify.)

             Date of accrcditalion:

      2.	    Do you have writlcn Quality Assurance    <               Must how.
             pro!.ods and proccdurc$?

      J
      -.     Is Ihc company in compliance with all                    Cross rcfcrcncc 10 producls4scrvicm 10 dc[crminc applicable
             applicablestale arid federal rcgulalo~                   rcquircmcnts.
             requirements:
                                                                      Verify   ~mit)lc        mm-compliance      with applicable slate or [uleral agency.
                   DOT
             — FDA
             — OSHA
             — O[hcr, as appkablc
             —

     4.	     Dots [hc company own producl invcnlory.                  If N(I, will II(JI qunli(y    [or suppllcr nurnbcr.
             1{no, please dcscribc your arrangements for
             producI distribution.

     5.	     Are personnel onsi(c at ihc supplier addrms              l(m), will II(1I qu:lli(y [or supplier number.
ii
             during statal hours of opcralion?
‘1           If no, plasc explain.
sU1’1’Ll13R VERIFICA”[’ION
tll DA CONSENSUS CON1713RENC13
May 13-14, 1~]


REcOMMENDED             SUPPLIER APPLIWTION                    CO NT[?NI’
AND    VER1FICATION          PROCEDURES

                                                                                               vllRIFl~TION      /COMMENT
                                                                            -..-.-—- ---------.-—----


6,	    Do you prcwidc (directly or by contracl)      24 hour                Required.
       cmcrgcney Iclcphonc reqmnsc scrvicc?

 7.	   Dots [hccompany have a wrillcn policy                                Required         ~ilmc polidcs do no! gcl reviewed by Ihe
       regarding patient righls and responsibility?                                          cxrncr, as in accrulita{ion, bul any businas
                                                                                              requiring it Mcdicarc supplier number must
$+.	   Doa Ihc company have wrillcn infcclion                               I<(”qllltt”d.     have Ihc..c wriltcn policies in place. Such
       conl rol promcols ([or bo[b cm ployccs find                                            wrillcrn policy could bc used in a IaWuil IO
       pa{icnls)?                                                                             c.si;itllish Ihc slnndard Ihc company should
                                                                                              Il;lvc IllCl).
9.	    Doe.. Ihc company have wrillcn main[cnancc                           l{cquircd.
       and scticc protocols, including (raining of
       SCMCCmchnicians.

10.	   Dm Ihc company have willcn personnc~                                 Required.
       staffing standards and promcols?

Il.	   Does Ihc company  have Writ(cn pro{ocds and                          Required.
       procedures regarding record marragcmcn$?



PLIW3E A7TACH COPIES OF:

 1.	   Currenl Professional Liccnsc for each                                Cross rc[crcncc 10 produclshcn’ices to ensure all appUcable are
       hm]lhcarc employee or conlrac{or.                                    in pl:lcc.


2      Pharmacy ticcnsc, if applicable.                                     Vcri(y Slnndinr wi(h slalc board.


.3 .   Occupational L.iccnsc, if ilpplkqblc,

4,	    Certilicalc of Producl/i’rofc2ssional   Liabiiily
       Insurance.
S~Jf’f’l.liX VERIFICA’I’ION
t{l DA CONSENSUS       CONll?RilNCU
May 13-14, 1991

RE@MMENDED               SUPPLIER APPLICATION           CO N~[; N_f’
AND VER[F’l~TION            PROCEDURES

                                                                                       vi2Rl F1(XT10N/   cOMMENT
                                                                       -— —.-— .-----------


SIC) NATURES       / A77’ESrATION



 1.   Owner/Prcsidcnl name and signa[urc,

2.    AllQlalion   sta(cmcn(   10   include:

      a.	 undcrs[and all information will remain
         confidcn[ial.

      b,	 understand some or all of the information
          provided w’11bc verified by lhc umicr,
          both prior 10 issuance of a provider number
          as well as on an ongoing basisasdccmcd
          appropria(c. This mayinclude onsilc
          inspection.

      c,	 altcmalion that information provided is
          accurate and complctc.

      d.	 understand Ihal an updated appiica(ion is required
          whhin 60 dap if change in ownership or for addi!ion
          of products acMcc$ no{ includd on initial or mos[
          rcccn[ application.

      c.	 undcrs[and lhc suppiicr number mny bc suspended
          or rcpealcxi if false information is provided.
10/04/’94     08:39      S41O   966   5305                       EES OIG OAS               ECFA                         @oo2/oo2




     Se@mber 26, 1994

                                                                                                               .



     Ma. l?enllymmmpson
     -of      Inspector GeLk?nd
              Wallkon     & ImqXctions
     K           of M&       Human sWkcs                                               .   .
     6325 Security Blvd., k- 1-D-MOM                   --
     Baltimore, Maryland21207

     13e4UM6wTbOmpaorl:

     Thankyou for sendingus an advance copy of the &d C)IGreport on oxygen services. We
     sent it to our membexswho manufactureoxygen products. Our commmts are as follows:

      1.	        1- Change libsupporting to su@xnental oxygen(m ~W-
              I%ge                                                       OXYWI
              comdmtm ameousidefed non-l@ support dev-im by theFDA theydo pm*
              --            OXY=

      2.	     Page 16- Under “Establishing minimum -ems”          section, H(2FA may want to
              takeinmaceouot   use of oxygen c mmenmtbn status Indieatocs (Osq.    Two
              stsmkds (ASTM 1464-93 and ISO 8359) will/do mquke the use of 4XSI’S on all
              concentrators, This may be a minimum requircmcnt, so that absent m OCSI
              mimhmemcnt foraconcemramr                would bek3sthan                      forth0seuni@   soequippd.


      Plcasecallm     cifytmhavcan      yquestions cmmxnkg                    these comments.


      Sincas.i!.


      Marcia Nusgart, R.Ph.
      IM3ct.or,Homo CaIU

      MN/bcj


                                         Health IIMUSIIY MSIUIfaCMWS ~


                                        !200   G STREET.           N. W,,      SUITE       ~oo

                                         w66HINGTDN,              o.c.      “2aoa5-ta14

                                                   (20Z)         7es-0700

                                                FAX    (202)        7e3-s750



                                                            .,
                                                            ‘t
        4P
October 3, 1994

                                        AMERICAN ASSOCIATION FOR RESPIRATORYCARE
                                        ~1030 Ables Lane, Dallas, TX 75229, 214/243-2272, Fax 214/484-2720




June Gibbs Brown

Department of Health& Hiunan Services

OfEce of Inspector General

5250 Cohen Building

330 Independence Awmue S.W.

Washir@q DC 20201


Dear Inspector General Browm


The American Association for Respiratory Care (AARC), a professional association representing
37,000 respiratory care pracl.itioners (RCPS), has reviewed the draft of the Inspector General’s (IG)

repoti “Oxygen Concentrator Services”.


The AARC has, over the years,          umsiskntly    stressed the critical importance of providing support
services,    in partiouhu    patient asseasmm    as a key compormt       of home o-      therapy. We are
gratifd that the IGs        report has reached the same conclusion.     Inoonsistenaes   in providing support
services    among suppliers can no longer be permittd.       The number of patimts requising home oxygen
therapy is increasing       and will continue to inorease as the population agea.        l%e advancements    in
medical technol~     coupled with the financial pressures on hospitals to discharge pulmonary-
compromised patients earlier results in a more fragile patient receiving oxygen therapy in the home.


COMMENTS:
while      the   AARC supports the recommendations        of the IG’s repo~     we are concerned     about the
methodology used in constructing this report.       The sample size is very small, i.e., only 244 beneficiaries
out of 220,371       oxygen therapy patients were surveyed. Such a small sample size could affect the
                          report. Furthermore,no mentionwas made of the geographicaldistributionor
statistical validity of the
the “type”(i.e., national &a@ small independmt business,respiratoryonly, home infbsi~ etc.) of the
183 suppliers used within the report. l%eae types of variations have an afl?ecton survey outcomes and
data cokctkm. We note that the report acknowledgesthat 1991 data was used and stipulates that
“concernedorganizationshave implementedimproved standards of care since then”. We believeM
that point should be fkther emphasi~ simply for the fact that so much change has mxurred over the
last three years in the home health care arena. We are also concerned that       broad comparisons    are made
betweenthe Veteran Administration’smethod of providinghome oxygentherapy and the way Medicare
program provides these services. Perhaps, the differences between the two programs should be
emphasized.

In the ExecutiveSummary, respiratorytherapy is incorrectlyreferencedon Page i, paragraph 5, the line
reading “...life smtaking resoiratorv theraDy for patient...”. The term “oxygentherapy should be
substituted. Respiratory therapy compromises more than just oxygen therapy, and can include, but is
not limited to, such therapies as chest physiotherapy, mechanical ventilation, and aerosol therapy. The
same incorrect reference is made in the introduction on Page 1, paragraph 5.
.




    June Gibbs Brown

    Office of Inspector General

    Page Two

    October 3, 1994




    Page 13- Third paragrapk last line- “cred4aUing” is misspelled.

    Page 16- Item #1 - we would urge you to specifically ackmvvledge the AARC, along with the
    references to JCAHO, CHAP, and NAMES. Much of the standards these organizations developed were
    based on the AARC’Sstandards.

    A key elemtmt in the education and clinical tdng      of a respiratory care practitioner is patient
    assessmeart. RCPS are the only profeasiomds trained in all eiements of respiratory care diagnosis,
    treatmen~ and therapy. Patient assessment of the home oxygen patient is an integml component in the
    delivery of proper therapy, as well as a safkguard in assuring only the appropriate equipment and
    services are rendered.

    The FDA      classifies home oxyg= therapy equipment and related accessories       as kgend devices.
    Aaxdingly,      home medical equipment (HME) providers must have a valid physician’s prescription prior
    to dispensing    such equipment.   A device requiring a physician’s prescription would likewise require
    consistent and systematically planned follow up to redum the likelihood of compromising the patient’s
    health and/or life through misuse or non-use.                     \

    Perhaps, another avenue in reaching the goal of enhanced patient services for home oxygen thqY
    would be to amend the curmt Medicare certificates of medical necessity (CMN) for OXB           by
    requiringmore patient assessment procedures.

    It is apparent to us that inconsistencies regarding appropriate patient services for home oxygm patients
    will abound until minimum service standards are required by Medicare.        It is inherently unfair and
    medically unacceptable for Medicare beneficiaries to be placed in a situaticm where critical     oxygen
    services are left strictly to chance.

    The AARC strongly endorses the recommendations proposed in the K+% repo~ “oxygen Concentrator
    services”.
    Sincerely,




    Deborah   L. Cullq EdID,RRT
    Presid~      AARC


    DLC/jr
